<html>
<title> - ADDRESSING THE HOUSING CRISIS IN INDIAN COUNTRY: LEVERAGING RESOURCES AND COORDINATING EFFORTS</title>
<body><pre>[Senate Hearing 112-514]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-514

 
 ADDRESSING THE HOUSING CRISIS IN INDIAN COUNTRY: LEVERAGING RESOURCES 
                                  AND 
                          COORDINATING EFFORTS

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                   BANKING,HOUSING,AND URBAN AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                                   ON

     EXAMINING THE LACK OF SAFE, AFFORDABLE, HIGH-QUALITY HOUSING 
     OPPORTUNITIES IN INDIAN COUNTRY AND EXPLORING INDIAN HOUSING, 
   INFRASTRUCTURE, AND COMMUNITY DEVELOPMENT TO ENSURE HIGH-QUALITY 
HOUSING OPPORTUNITIES ARE EASILY ACCESSIBLE TO TRIBES AND THEIR HOUSING 
                             ORGANIZATIONS

                               __________

                             MARCH 8, 2012

                               __________

  Printed for the use of the Committee on Banking, Housing, and Urban 
                                Affairs


                 Available at: http: //www.fdsys.gov /



                  U.S. GOVERNMENT PRINTING OFFICE
75-712                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4621362906253335322e232a366825292b68">[email&#160;protected]</a>  


            COMMITTEE ON BANKING, HOUSING, AND URBAN AFFAIRS

                  TIM JOHNSON, South Dakota, Chairman

JACK REED, Rhode Island              RICHARD C. SHELBY, Alabama
CHARLES E. SCHUMER, New York         MIKE CRAPO, Idaho
ROBERT MENENDEZ, New Jersey          BOB CORKER, Tennessee
DANIEL K. AKAKA, Hawaii              JIM DeMINT, South Carolina
SHERROD BROWN, Ohio                  DAVID VITTER, Louisiana
JON TESTER, Montana                  MIKE JOHANNS, Nebraska
HERB KOHL, Wisconsin                 PATRICK J. TOOMEY, Pennsylvania
MARK R. WARNER, Virginia             MARK KIRK, Illinois
JEFF MERKLEY, Oregon                 JERRY MORAN, Kansas
MICHAEL F. BENNET, Colorado          ROGER F. WICKER, Mississippi
KAY HAGAN, North Carolina

                     Dwight Fettig, Staff Director

              William D. Duhnke, Republican Staff Director

                       Charles Yi, Chief Counsel

                     Laura Swanson, Policy Director

                 Adam Healy, Professional Staff Member

                 Beth Cooper, Professional Staff Member

            Dana Wade, Republican Professional Staff Member

                       Dawn Ratliff, Chief Clerk

                     Riker Vermilye, Hearing Clerk

                      Shelvin Simmons, IT Director

                          Jim Crowell, Editor

                                  (ii)
?

                            C O N T E N T S

                              ----------                              

                        THURSDAY, MARCH 8, 2012

                                                                   Page

Opening statement of Chairman Johnson............................     1
    Prepared statement...........................................    19

Opening statements, comments, or prepared statements of:
    Senator Akaka................................................     2

                               WITNESSES

Sandra B. Henriquez, Assistant Secretary for Public and Indian 
  Housing, Department of Housing and Urban Development...........     3
    Prepared statement...........................................    19
    Response to written question of:
        Chairman Johnson.........................................    35
Doug O'Brien, Deputy Under Secretary for Rural Development, 
  Department of Agriculture......................................     5
    Prepared statement...........................................    24
Robert G. McSwain, Deputy Director for Management Operations, 
  Indian Health Service, Department of Health and Human Services.     7
    Prepared statement...........................................    27
Jodi Gillette, Deputy Assistant Secretary of Indian Affairs for 
  Policy and Economic Development, Department of the Interior....     8
    Prepared statement...........................................    31

                                 (iii)


 ADDRESSING THE HOUSING CRISIS IN INDIAN COUNTRY: LEVERAGING RESOURCES 
                        AND COORDINATING EFFORTS

                              ----------                              


                        THURSDAY, MARCH 8, 2012

                                       U.S. Senate,
          Committee on Banking, Housing, and Urban Affairs,
                                                    Washington, DC.
    The Committee met at 10:04 a.m. in room SD-538, Dirksen 
Senate Office Building, Hon. Tim Johnson, Chairman of the 
Committee, presiding.

           OPENING STATEMENT OF CHAIRMAN TIM JOHNSON

    Chairman Johnson. Good morning. I call this hearing to 
order.
    Today, the Committee will continue examining an issue of 
great importance to me and so many in my home State of South 
Dakota: the lack of safe, affordable, high-quality housing 
opportunities in Indian Country. During my time in Congress, I 
have worked to improve the housing options available to 
American Indians, including being an original cosponsor of the 
Native American Housing Assistance and Self-Determination Act 
of 1996, NAHASDA. Unfortunately, as those living in Native 
communities know all too well, the critical housing needs far 
outpace the resources devoted to the problem.
    The Census Bureau reported in 2008 that Native Americans 
are almost twice as likely to live in poverty as the rest of 
the population. For the same year, the GAO reported that nearly 
46 percent of Native households were overcrowded, a rate that 
was almost three times as high as the rest of the country. 
According to the 2009 Annual Homeless Assessment Report, 
American Indians make up less than 1 percent of the general 
population, but 8 percent of the country's homeless population. 
Together, we must work to reverse this trend.
    In 2010, I chaired a joint Banking and Indian Affairs 
Committee field hearing in Rapid City, South Dakota, to examine 
creative solutions to the Indian housing crisis. Prior to the 
hearing, I brought HUD Secretary Donovan to the Rosebud Sioux 
Reservation so that he could see firsthand the immediate 
challenges facing Native communities. We heard from several 
witnesses who all echoed the need for housing funds. I support 
their calls for sufficient funding and will continue fighting 
for such funding as a member of the Appropriations Committee. 
But it is also important that we collaborate and leverage 
existing resources to provide housing in these tough economic 
times. These resourceful ideas are not meant to free the 
Federal Government of its treaty and trust responsibility; 
rather, these ideas should serve as another avenue for us to 
work together to address the housing crisis facing Indian 
Country.
    As Chairman of this Committee, I am committed to ensuring 
that programs across many Federal agencies that address Indian 
housing, infrastructure, and community development are easily 
accessible to tribes and their housing organizations. It is 
also critically important that Federal agencies engage in a 
government-to-government relationship and participate in 
meaningful consultation with tribes on housing issues and other 
important matters. That is why I have invited all of you to 
testify today. Each of your agencies plays an important role in 
Indian housing or housing-related infrastructure and community 
development. I look forward to hearing from you about how your 
agencies collaborate to make sure your work provides the most 
efficient and effective housing assistance possible in Indian 
Country.
    Longer term, the Committee is beginning to lay the 
foundation for the reauthorization of NAHASDA next year. It 
will be important for all of us concerned about Indian housing 
to work closely on this reauthorization, including tribes and 
their housing agencies.
    With that, are there any Members who wish to make a brief 
opening statement?
    Senator Akaka. Mr. Chairman?
    Chairman Johnson. Yes, Senator Akaka.

              STATEMENT OF SENATOR DANIEL K. AKAKA

    Senator Akaka. Thank you, Mr. Chairman, for your leadership 
in holding this important hearing.
    Chairman Johnson, you and I, along with Senators Tester, 
Crapo, and Johanns, also serve together on the Indian Affairs 
Committee where we have been examining the various obstacles 
that hold tribal nations back from achieving the goals of self-
sufficiency and economic development.
    One of the many core problems that plague Indian Country is 
the state of Indian housing, and you all know that very well. 
It is estimated that 90,000 Native families are homeless or 
underhoused and that 200,000 new housing units are currently 
needed. Due to this shortage, many Indian homes are severely 
overcrowded, and many lack the basic features that most 
Americans take for granted, such as access to electricity, a 
kitchen, or even connection to a sewer system.
    This lack of housing also has significant impacts on other 
areas of tribal life. Insufficient housing makes it harder for 
tribes to attract teachers to educate their children and law 
enforcement officers to protect their citizens and the local 
community. Also, it creates barriers to economic development, 
standing in the way of business opportunities that would 
benefit both tribes and local communities by creating jobs.
    Addressing these issues is not easy. However, it is vital 
that we do, and for the well-being of the tribal economies to 
help tribes provide for the basic needs of their members.
    With that, Mr. Chairman, I am very pleased to be here with 
you today as we continue the good work of the Banking Committee 
as we examine how to address the housing needs of Native 
communities. Thank you.
    Chairman Johnson. Thank you, Senator Akaka.
    I want to remind my colleagues that the record will be open 
for the next 7 days for opening statements and other materials 
you would like to submit. Now I would like to briefly introduce 
the witnesses that are here with us today.
    Sandra Henriquez was confirmed by the Senate unanimously in 
2009 as HUD's Assistant Secretary for Public and Indian 
Housing, where she oversees the Office of Native American 
Programs.
    Doug O'Brien has served as USDA's Deputy Under Secretary 
for Rural Development since 2011, where he works with the Rural 
Housing Service and other agencies that are important to Indian 
housing.
    Robert McSwain is Deputy Director for Management Operations 
at the Indian Health Service. He is a member of the North Fork 
Rancheria of Mono Indians in California. Mr. McSwain was 
confirmed by the Senate in 2008 and served as the IHS Director 
until May 2009.
    Jodi Gillette is the Deputy Assistant Secretary of Indian 
Affairs for Policy and Economic Development at the Department 
of the Interior. She is an enrolled member of the Standing Rock 
Sioux Tribe located in North and South Dakota.
    We welcome all of you here today and look forward to your 
testimony about this important issue.
    Ms. Henriquez, you may proceed.

   STATEMENT OF SANDRA B. HENRIQUEZ, ASSISTANT SECRETARY FOR 
  PUBLIC AND INDIAN HOUSING, DEPARTMENT OF HOUSING AND URBAN 
                          DEVELOPMENT

    Ms. Henriquez. Thank you and good morning, Chairman Johnson 
and Senator Akaka. It is a pleasure to appear before you, and I 
would like to express my appreciation for your continuing 
efforts to improve the housing conditions of American Indian, 
Alaska Native, and Native Hawaiian peoples.
    The Office of Public and Indian Housing is responsible for 
the management, operation, and oversight of HUD's Native 
American and Native Hawaiian housing and community development 
programs. These programs are available to all 566 federally 
recognized tribes and the State of Hawaii's Department of 
Hawaiian Home Lands. Since President Obama took office, we have 
worked to create a new chapter in our nation-to-nation 
relationship, one built not on Federal mandates but on 
expanding interagency collaborations, strengthening tribal 
partnerships, and developing programs that better meet the 
needs of the Native communities, and today I would like to 
discuss how HUD is making progress in all of these areas.
    At a time when we are all being asked to do more with less, 
it is more critical than ever to identify inefficiencies, 
streamline programs, and find ways to work together and pool 
Federal resources to benefit the families and communities we 
work to serve. For years, HUD has worked closely with several 
Federal agencies that serve Indian country, including the 
Bureau of Indian Affairs, Indian Health Services, the 
Departments of Agriculture and Energy, the Federal Emergency 
Management Agency, and the Environmental Protection Agency. We 
know that increased interagency collaboration helps stretch 
Federal resources and assures that Native communities are 
actually receiving the support they need from the Federal 
Government, and the results of that collaboration are clear.
    Whether it is our work with BIA to reduce the title status 
report delays, to increase access to capital for Native 
Americans and Alaska Natives living on trust land, or our 
partnership with FEMA to provide homes to retain Native 
teachers who were previously unable to find adequate housing on 
reservation land, or our work with USDA, EPA, HHS, and BIA to 
improve the quality and long-term viability of water and 
wastewater infrastructure projects, or our Greener Homes Summit 
where multiple agencies collaborated on a strategy to provide 
tribes with a one-stop approach to training and technical 
assistance in energy efficiency and sustainability, HUD is 
doing everything we can to eliminate duplicative efforts, 
conserve precious resources, and improve service delivery in 
Indian Country.
    But our commitment to collaboration goes even deeper than 
our work with other Federal agencies. Indeed, history has shown 
that failure to include the views of tribal leaders in policies 
that affect tribes has often led to undesirable and at times 
devastating results. By contrast, we have seen that meaningful 
dialogue between Federal officials and tribal leadership has 
vastly improved the U.S. Federal policy and government-to-
government relations, and I would like to speak briefly about a 
few efforts that reflect that new understanding.
    In October 2008, the President signed into law NAHASDA, and 
as part of NAHASDA, a negotiated rulemaking process was 
established that allows HUD and tribal leadership to work 
together to develop regulations that support implementation of 
the act. Tribally elected communities and HUD held six 
negotiated rulemaking sessions in 2010 which produced a draft 
proposed rule, which we hope to have finalized by the end of 
this year.
    In addition, this May, we will publish a Federal Register 
notice announcing the creation of a separate negotiated 
rulemaking Committee to propose changes to the Indian Housing 
Block Grant formula, and HUD anticipates holding the first 
meeting of this new rulemaking committee in the fall of 2012.
    In our consultations with tribes, we were told time and 
again just how critical it was that we reform the Indian 
Housing Plan and Annual Performance Report, to streamline the 
planning and reporting process, and move from a grant-based 
program year to a fiscal year program, as well as to get money 
out the door faster and into the hands of the communities that 
needed it. I am proud to say that we have responded, and over 
the next year, we should see the benefits of how the new IHP/
APR, which include ability to more accurately track activities 
and expenditures, spend down the oldest IHBG funds first, and 
speed up the obligation by tribes of funding from September to 
June.
    And, finally, in 2010, we launched a study of the unique 
housing needs in Indian Country. HUD's last comprehensive study 
of housing needs in Native countries was 15 years ago, and in 
order for HUD to fully respond to the current needs in Indian 
Country, we first need a clearer picture of what those needs 
are.
    So this study, we can begin to develop a long-term and long 
overdue economic and community development reinvestment 
strategy. And to ensure that tribal concerns and ideas are 
incorporated into the study, HUD will hold six additional 
consultations this year and begin field work in 2013.
    Chairman, I believe that a housing needs study as well as 
the revised IHP/APR and the negotiated rulemaking are but a few 
examples of how HUD is not just investing in Native families, 
as important as that is, but writing a new chapter in Native 
American policy that emphasizes inclusion, growth, and creative 
responses to the needs of tribal communities. We are becoming a 
better partner to the tribes, a partner that is working to 
build a stronger, better America, where every Native family and 
community has a fair shot.
    So thank you again, Mr. Chairman and Members of the 
Committee, for the opportunity to appear before you today. I 
would be happy to answer any questions that you may have.
    Chairman Johnson. Thank you, Ms. Henriquez.
    Mr. O'Brien, you may proceed.

  STATEMENT OF DOUG O'BRIEN, DEPUTY UNDER SECRETARY FOR RURAL 
             DEVELOPMENT, DEPARTMENT OF AGRICULTURE

    Mr. O'Brien. Chairman Johnson, Senator Akaka, thank you for 
inviting USDA to testify on the issue of housing in Indian 
Country. The Obama administration is acutely aware of and 
committed to overcoming the longstanding barriers to 
homeownership on tribal lands, borrowers' credit issues, 
challenges with security on trust land, and a complicated 
leasing process, all of which hinder capital investment on 
Indian lands. USDA is particularly committed to improving our 
service to Indian Country.
    The Office of Tribal Relations, located within the Office 
of the Secretary, was created to ensure that all relevant 
programs and policies are efficient, accessible, and developed 
in consultation with the governments they impact. And in order 
to address civil rights complaints and to pave the way for 
stronger relationships with Native American farmers and 
ranchers, USDA's Keepseagle settlement will make $760 million 
available to successful claimants, provide education and 
technical assistance to Native American farmers and ranchers, 
and require that regulations and policies be reformed to better 
assist them.
    At the direction of President Obama and Secretary Vilsack, 
USDA has also taken a number of actions that will significantly 
reduce existing challenges to affordable housing in Indian 
Country, and we are designing these approaches through a 
government-to-government consultation process because 
meaningful dialogue between Federal officials and tribal 
officials greatly improves Federal policy designed to be 
delivered to the tribal communities.
    Since President Obama's 2009 Memorandum on Tribal 
Consultation and Collaboration, a team from across USDA has 
been reviewing how tribal consultation informs program 
implementation. Rural Development is part of this effort, and 
our staff continues to dialogue with tribal leadership at the 
local, regional, and national level.
    Because of consultation and our experience on tribal lands, 
we know that lack of infrastructure is a major issue. Along 
with my fellow panel members, USDA serves on the Tribal 
Infrastructure Task Force that focuses on Federal agency 
collaboration to address the need for safe drinking water and 
basic sanitation. In February 2011, this group produced a 
report containing 10 recommendations for increasing access to 
programs in Indian Country. Rural Development is committed to 
working with this group to implement these recommendations.
    Beyond addressing critical infrastructure issues, USDA is 
working with the Bureau of Indian Affairs to discuss land and 
lending issues that create challenges to extending credit on 
trust land. As a result of these meetings, USDA and the BIA are 
drafting a memorandum of understanding that will allow both 
agencies to better understand each other's programs and the 
technical requirements for their delivery in Indian Country.
    When we at Rural Development talk about housing, we think 
about it in the context of the entire rural community. It is 
infrastructure and facilities, it is businesses and jobs that 
support families as well as individual homeowners. Rural 
Development staff delivers programs through a network of local 
offices. These programs support essential public facilities and 
services such as water and sewer systems, health clinics, 
emergency facilities, electric, telephone, and broadband 
services. Rural Development promotes economic development in 
rural areas by providing loans, grants, and other assistance.
    From 2001 to 2011, Rural Development assistance benefiting 
tribes totaled more than $3 billion. Because we have State and 
area offices in and near tribal communities, we are able to 
cultivate relationships with tribal leaders, lenders, realtors, 
community-based organizations, and others.
    To maximize these relationships, we not only have a 
national Native American tribal coordinator, we also have 
tribal coordinators located at each Rural Development State 
Office. In housing in particular, we have invested $1.3 billion 
in Indian Country over the past 10 years. We have seen the 
impact of such investment firsthand.
    Just last month, Rural Development's Under Secretary Dallas 
Tonsager took part in a ribbon cutting held by the Maliseet 
Tribe in Maine to celebrate their first multi-family apartment 
complex. When the tribe broke ground in November 2010, the 
Tribal Housing Authority had 40 families on a waiting list for 
housing. The completion of this housing complex moves this 
tribe in the right direction.
    For a community to access housing programs, it must have 
access to insurance products, a historic challenge on trust 
lands. We have been working to develop solutions. For example, 
the AMERIND Risk Management Corporation is a risk management 
agency administering a tribally owned risk management pool that 
covers homes and other structures on Indian lands. A Rural 
Development Administrative Notice was published last November, 
advising staff that the AMERIND could save borrowers money and 
increase capital in tribal communities.
    All of us on this panel have been working to improve 
coordination across agencies, and we are proud of the progress 
that this Administration has made. These collaborative efforts 
provide us the best opportunity yet to significantly reduce the 
barriers that have made it difficult for Indian Country to 
access Government programs. We look forward to continuing to 
work closely with tribes to create more homeownership 
opportunities.
    Again, I want to thank you for the opportunity to speak 
before you today, and I am ready to answer any questions.
    Chairman Johnson. Thank you, Mr. O'Brien.
    Mr. McSwain, you may proceed.

STATEMENT OF ROBERT G. McSWAIN, DEPUTY DIRECTOR FOR MANAGEMENT 
  OPERATIONS, INDIAN HEALTH SERVICE, DEPARTMENT OF HEALTH AND 
                         HUMAN SERVICES

    Mr. McSwain. Thank you, Chairman Johnson and Senator Akaka. 
I am really pleased to be here today to talk about and 
certainly discuss this important issue of Native American 
housing as well as the infrastructure development, and the 
infrastructure development certainly in an area that we play 
heavily in. I, too, want to thank everyone for your leadership 
on bringing this topic to the forefront.
    The IHS is keenly aware of the need for adequate housing 
throughout Indian Country and role to address the requirements 
for adequate infrastructure to support new and existing 
housing.
    The IHS has the primary responsibility for providing water 
supply, along with solid and liquid waste disposal facilities 
for American Indian and Alaskan Native homes and communities as 
part of delivering our total program. As you know, our total 
program consists of clinical care, preventative care, and 
public health, and the Sanitation Facilities Construction 
program is a critical part of our effort to deliver the care we 
do.
    IHS works cooperatively with tribes in providing these 
essential facilities. Enhancing tribal capabilities and 
building partnerships based on mutual respect are key factors 
in the success of this IHS program. The IHS also coordinates 
and advocates on behalf of and in cooperation with tribes to 
seek resources from other Federal agencies as my colleagues at 
the table.
    The Sanitation Facilities Construction program, as I 
mentioned, is an integral component of the IHS disease 
prevention activities. The IHS has carried out this program 
since 1959 using funds appropriated for Sanitation Facilities 
Construction to provide potable water and waste disposal 
facilities for American Indian and Alaska Native people. As a 
result--and you have seen this data before--the rates of infant 
mortality and mortality rate for gastroenteritis and other 
environmentally related diseases have been dramatically reduced 
by about 80 percent since 1973. IHS physicians and health 
professionals credit many of these health status improvements 
to IHS' provision of water supplies, sewage disposal 
facilities, development of solid waste sites, and the provision 
of technical assistance to tribally owned/operated sewer 
utility organizations. An important part of our partnership is 
to work with tribes. Our first partner is the tribes. And the 
most important piece I can leave you with today is our 
consultation with tribes to develop the Sanitation Deficiency 
data system, where we map out the entire needs across the 
country and by areas, rank-order the projects that we want to 
address, and that becomes our total system.
    As of November, the list to correct sanitation deficiencies 
totaled $3.1 billion, with those projects that are considered 
economically and technically feasible totaling $1.46 billion. 
We can talk about what is feasible and what is not, and you 
probably know that already.
    Relative to coordination with other agencies, the IHS has 
coordinated with States, tribes, local governments, and other 
Federal agencies since the first sanitation facility that was 
built in Elko, Nevada, in 1958, which led to the passage of 
Public Law 86-121 in 1959.
    In 2007, as was mentioned by my colleague, certainly the 
Department, the Department of Agriculture, the Department of 
Interior, Housing and Urban Development, and Health and Human 
Services formed an Infrastructure Task Force that was 
referenced earlier, and the important part of this is that this 
is, in fact, an ability to coordinate amongst all agencies that 
have a vital interest in Indian housing and Indian--certainly 
Indian housing and the support infrastructure that occurs.
    Approximately 43 percent of all IHS SFC-funded projects 
over the last 5 years were funded either partially or entirely 
with contributions from others. You will hear all of us talk 
about leveraging the other, and that is what we do. That is 
what we work with the tribes to do.
    The challenge before us, though, is that the sanitation 
facilities infrastructure grows every year--the needs grow, the 
population grows. And, of course, then what has happened in the 
meantime was in 2006 the EPA did change the arsenic rule, and 
immediately we had 18,000 homes that were impacted. Currently, 
we have now 36 systems serving 42,000 people that are out of 
compliance with the new arsenic rules.
    Tribally owned and operated facilities is huge, and let me 
just close by saying that the most important part we can do is 
work with tribes on operation and maintenance. There has got to 
be training. There has got to be certainly startup supplies and 
equipment to help them maintain their systems when we have 
built them and transferred them.
    With that, this concludes my remarks, and I would be happy 
to answer any questions you may have, Mr. Chairman.
    Chairman Johnson. Thank you, Mr. McSwain.
    Ms. Gillette, you may proceed.

   STATEMENT OF JODI GILLETTE, DEPUTY ASSISTANT SECRETARY OF 
INDIAN AFFAIRS FOR POLICY AND ECONOMIC DEVELOPMENT, DEPARTMENT 
                        OF THE INTERIOR

    Ms. Gillette. Good morning, Mr. Chairman and Senator Akaka 
and Members of the Committee. My name is Jodi Archambault 
Gillette, and I am the Deputy Assistant Secretary for Indian 
Affairs at the Department of the Interior. I thank you for 
shining a spotlight on this very important housing situation in 
Indian Country as well. Growing up on the Pine Ridge Indian 
Reservation, I know firsthand the lack of adequate housing has 
an incredible strain on a community of family and a nation. I 
only can talk about the agency perspective, but you well know, 
as Mr. McSwain noted, that the population continues to grow, 
and unless we take measured steps that will result in a great 
degree of success, the conditions may only worsen.
    I am pleased to provide you with the Bureau of Indian 
Affairs' activity in providing home improvement assistance and 
our role in assisting individual Indians in the pursuit of 
homeownership. The BIA's Office of Indian Services runs the 
Housing Improvement Program. This program addresses the 
Department's strategic goal of serving Indian communities by 
improving the quality of life of eligible Indians by helping to 
eliminate substandard housing and homelessness. The program's 
activities include housing repairs and renovations of existing 
homes and construction of modest homes for families who do not 
own a home but own or lease land where a home can be built. The 
BIA's policy and methodology ensures that we are providing 
housing assistance to the neediest of the needy. We look at 
qualifications that include disability, elderly, children, 
number of children in the household, and income to determine 
who would qualify for this program. Consistent with the goals 
of this self-determination, the program is 95 percent operated 
by tribes through 638 contracts or self-governance compacts. 
Those tribes participating in the program must comply with 
appropriate regulations.
    In addition to providing home improvement assistance, we 
also have an important role in the mortgage process. The BIA's 
Land Titles and Records Office is the official Federal office 
for recording all title conveyance and encumbrance documents 
for Indian lands within the LTRO's jurisdiction. The LTRO is 
also the Federal office for the examination and certification 
of title to Indian trust and restricted lands. The LTRO issues 
an official Federal certificate of title to Indian lands known 
as the Title Status Report, or TSR, which is the legal land 
description, the current ownership, and the recorded liens and 
encumbrances on the ownership for a specific tract of Indian 
trust or restricted land. The TSR is required by lending 
institutions to verify that the loan applicant has acquired a 
leasehold interest on tribal land or that the loan applicant 
has total ownership of the trust land, and that the title is 
clean and clear of any liens against the property so that the 
loan application process can move forward.
    In 2004, the BIA entered into an MOU with the Departments 
of Agriculture and Housing and Urban Development for the 
purposes of establishing a framework for partnering among the 
agencies to improve assistance to American Indians and Alaska 
Natives in the development of affordable housing on trust and 
restricted lands, reservations, and in approved service areas. 
Our goal is to assist tribes in improving their living 
environment through the delivery of quality housing and 
resolving issues that delay processing of mortgage loans to 
eligible Indians.
    Additionally, we have partnered with HUD's Office of Native 
American Programs, Rodger Boyd and folks, to provide training 
to lenders in order to educate the lenders concerning the title 
process for Indian mortgages and to better facilitate and 
improve the efficiency of the mortgage process. Anytime a 
mortgage is approved, it has the potential to improve the 
quality of life for Indians, and requests for Title Status 
Reports for the mortgage purposes are and will remain a high 
priority within the BIA.
    Also, we are in the process of revising leasing regulations 
as part of the effort to return control of land use decisions 
to tribal management and to streamline surface leasing 
processes to promote homeownership, economic development, and 
clean energy. We anticipate issuing final regulations later 
this year. We have gone through two rounds of tribal 
consultation, and we look forward to having some finality on 
this shortly.
    In addition to these proposed leasing regulation revisions, 
the Department strongly supports the Helping Expedite and 
Advance Responsible Tribal Homeownership Act, or HEARTH Act, 
both the House and Senate versions. The HEARTH Act would 
restore tribal authority to govern leasing on tribal lands and 
to promulgate regulations for the governance of those leases, 
while preserving the statutory tools available to the Secretary 
for carrying out the trust responsibility to tribes. Passage of 
the HEARTH Act has the potential to significantly reduce the 
time it takes to approve leases for homes and small businesses.
    This concludes my prepared statement, and I would be happy 
to respond to any questions you may have.
    Chairman Johnson. Thank you, Ms. Gillette.
    We will now begin asking questions of our witnesses. Will 
the clerk please put 5 minutes on the clock for each Member for 
their questions?
    Ms. Henriquez, I was pleased to see HUD issued a notice 
earlier this week announcing a revised tribal consultation 
process for the needs assessment. Meaningful tribal 
consultation is key to ensuring a sound study. Can you briefly 
explain how HUD addressed tribal concerns about this initial 
process?
    Ms. Henriquez. Thank you for the question, Mr. Chairman. 
Initially, we set out to do listening sessions or, I would say, 
consultations, small ``C.'' We really met in seven 
consultations around the Nation. We asked people to attend, to 
both look at the--to talk about the housing needs survey to be 
done, to look at the survey that had been done and the 
instrument used in 1996, and then to build upon that with 
changes in recommendations and so on.
    As that process went forward, we began to hear more 
conversation among tribal leaders that it was not a full 
consultation process, formal consultation. And with 
conversations both with two of the industry groups representing 
both tribal housing entities and tribal leaders, both NCAI and 
NAIHC, we decided that we should take a step back and that we 
should go into a formal consultation, much more formalized, 
deliberative process with tribal leaders. We held one of those 
sessions last July here in Washington. We just did another one 
on Monday afternoon in conjunction with NCAI's leadership 
meeting that is being held this week. And we have planned to do 
five others across the country between now and June.
    We find, as I said in my testimony, and all of us find that 
when--we want to make this successful, we want to make sure 
that it is done well and it is done right, and we want to make 
sure that it is responsive in as many ways as possible with 
what tribal leaders really want to have come out of this 
survey. And so that's why we decided we should take a deep 
breath, take a step back, re-engage in a much more formalized 
way and go forward.
    So we are doing some groundwork, background work right now 
that can go forward, but the formal design will wait until the 
end of this formal consultation period.
    Chairman Johnson. Mr. McSwain, for years Congress has 
prohibited IHS from using appropriated funds to pay for 
sanitation facilities infrastructure for HUD-funded homes. To 
what extent has this prohibition led to homes being constructed 
with inadequate drinking and wastewater systems? And should 
Congress remove the prohibition?
    Mr. McSwain. Thank you, Mr. Chairman. The prohibition, as 
you described, appears in our bill language every year in our 
appropriation that says we cannot support infrastructure for 
new HUD homes. Part of that is a history related to NAHASDA and 
how the dollars were actually routing. When NAHASDA was passed, 
the dollars went directly to the various housing authorities 
and did not come to the Indian Health Service. And so there 
was--and I cannot say for certain if that is the absolute 
cause, but that was part of it.
    But I would want to assure you, Mr. Chairman, that, for 
example, on average we still serve 200 homes a year, even 
though we are not providing the infrastructure, it is coming 
through the housing authorities, the fact that we have the 
engineers on the ground, they are actually sitting there and 
working with the community on the what the total housing needs 
are. And, granted, we ensure that the water systems we are 
allowed to put in have sufficient capacity for any additions 
that may come, the tribe has planned through HUD housing. But 
that has been the prohibition, and it has not really--we kind 
of work with the tribes to leverage resources to pick up the 
gap. But that is a prohibition, and we have been mindful of 
that.
    Chairman Johnson. Should Congress remove the prohibition, 
in your opinion?
    Mr. McSwain. In my opinion, if they fix the other end of 
it, which is the way that the dollars come from HUD to the 
tribal housing authorities, that they really do include 
infrastructure or work out something else, I think I would--
before I express my final opinion, I would certainly need to 
consult with my Director, Dr. Roubideaux, before I would 
respond.
    Chairman Johnson. Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    I want to tell this panel that your testimonies were well 
received here, and thank you so much for what you all are 
doing.
    Ms. Henriquez, in the last reauthorization of the Native 
American Housing Assistance and Self-Determination Act, the 
Native Hawaiian provision was not reauthorized. Title 8 is a 
block grant housing program for Native Hawaiians who reside on 
Hawaiian homelands. This title was added to NAHASDA in the year 
2000. In the year 2008, NAHASDA was reauthorized without Title 
8. Without congressional reauthorization, the risk that funding 
could be cutoff has had a detrimental effect on Native Hawaiian 
housing programs.
    Would your Department support the reauthorization of the 
Native Hawaiian provisions within the next reauthorization of 
NAHASDA?
    Ms. Henriquez. Thank you for the question, Senator. I would 
answer your question in this way: We continue both in our 
budget and in the President's budget to include funding for 
Native Hawaiian homelands for the infrastructure and for the 
building of homes under NAHASDA. I think that expresses our 
commitment moving forward and continuing, and we would like to 
work with you and Members of this Committee and the Chairman 
moving forward to make sure that all peoples in both Indian 
Country and in Native Hawaiian homeland and Native Alaskan 
lands are protected and covered.
    Senator Akaka. Thank you very much.
    Mr. O'Brien, Secretary O'Brien, USDA is in the process of 
streamlining to address budget shortfalls in the rural 
development programs. What impact will this have on tribal 
assistance within these programs?
    Mr. O'Brien. Senator, thank you for that question. As you 
pointed out, in particular in the last two appropriations 
cycles, the rural development mission area as well as, of 
course, many other components of the Federal Government, has 
experienced decreases in its appropriations. About 2 or 3 
months ago, Secretary Vilsack announced a blueprint for 
stronger service that indicated how we were going to manage 
this change, and for rural development, it included the closure 
of 43 of our 500 or so offices across the country for rural 
development. Those offices were chosen, looking at some farm 
bill legislation that actually directed a sister agency on how 
they choose to close offices, by looking at those that had two 
or fewer staff as well as those that were 20 miles or closer to 
another office. Also, Rural Development has the discretion to 
look at workload, to look at the needs of the community, and we 
are in the process of closing those 43 offices.
    Now, that said, Rural Development continues to have more 
than 450 offices throughout rural America, and work continues 
and we will continue to work closely with tribal communities 
and other communities in rural places.
    The USDA, the President's budget for 2013 continued to 
propose and request almost $50 million in set-asides for 
infrastructure and business programs for tribal communities, 
for Hawaiian homelands, and Alaska Native communities. And most 
of USDA's rural development programs continue to have a 
priority for distressed communities, many of which, of course, 
as was pointed out by both Senators today, are included in 
tribal communities.
    It does present challenges because the people in distressed 
communities tend to be some of the most resource intensive to 
serve, but it has changed that we are proactively trying to 
manage.
    Of course, and last, a key component of being able to 
continue to serve these communities will be to work with our 
sister agencies to make sure that we leverage our dollars most 
efficiently and, most importantly, that we continue the 
consultation process so we know what the governments in the 575 
individual tribal communities, nations, need most.
    Senator Akaka. Thank you, Mr. Chairman.
    Chairman Johnson. Mr. O'Brien, the GAO found in a 2010 
study that several tribal housing authorities had little or no 
interaction with or knowledge of USDA programs that could 
assist them meet their housing needs. I have not heard that in 
South Dakota where Elsie Meeks, who comes from the Pine Ridge 
Indian Reservation, is the State Rural Development Director and 
has worked closely with the tribes. Nationally, what has USDA 
done to enhance outreach to American Indian tribes?
    Mr. O'Brien. Senator, thank you for that question, and 
thank you for pointing out the exemplary work that our State 
Director Meeks does in South Dakota. In many ways, the work 
that is done in South Dakota is looked to as a model in how we 
can expand and improve upon our delivery across the country.
    Since that GAO report, I will talk about three things very 
quickly. One is that we have had an aggressive public service 
announcement campaign in both print and radio where we have 
utilized real stories of tribal citizens who have utilized our 
housing business infrastructure programs and have used the 
media outlets that are most listened to or read by tribal 
communities.
    We have also had an aggressive training program within the 
USDA itself because, you know, to address the problem of lack 
of access and knowledge by the tribal communities, we really 
need to educate our own workforce. So our national Native 
American Coordinator has worked with different components 
within Rural Development to make sure that our own employees 
understand how we can work and partner with tribal communities.
    The final thing I will mention is our aggressive agenda on 
tribal consultation that we find so valuable as we work through 
many, many issues--regulatory issues, funding issues, just 
basic process issues. We have had in the last 2 years more than 
25 either formal consultations, roundtables with national 
tribal leaders or national virtual convenings. I have had the 
privilege to participate in a number of those. In fact, just 
this morning I spent an hour with Chief Baker of the Cherokee 
Nation to talk about the issues there. So thank you for that 
question.
    Chairman Johnson. Ms. Gillette, the BIA administers a 
Housing Improvement Program, a home repair, renovation, and 
replacement grant program. How does this program interact with 
HUD and other programs?
    Ms. Gillette. Well, as I stated earlier, we do have an 
existing MOU, and we try to ensure that we do not have overlap 
between the different programs. We have specific regulations 
that govern the Housing Improvement Program, and they really 
are, we feel, meeting the needs of a specific part of the 
population on reservations that are not able to qualify for 
some of the programs at other agencies. And so this is really 
trying to address the needs of the very needy residents of the 
reservation.
    Chairman Johnson. For the whole panel, each of your 
agencies has a specific mission but collectively play an 
important role in helping ensure high-quality housing 
opportunities are available in Indian Country. How do you 
coordinate efforts on this front? Do you have formal agreements 
established with other agencies to provide housing and related 
services in Indian Country? Do agencies provide training to 
employees through the agreements so the agreements are 
implemented on the ground? Let us begin with you, Ms. 
Henriquez.
    Ms. Henriquez. Thank you, Mr. Chairman. I would say that, 
first of all, our mission and our vision at HUD, particularly 
as it relates to housing in Indian Country, is to understand, 
most importantly, the mission and vision of tribes themselves, 
and our role is to help them accomplish their mission. And we 
see our partnership role from that lens directly.
    We have a number of formal agreements we have discussed 
here with a number of agencies both here and others that are 
not here, such as FEMA and so on. And we provide training not 
just for our own employees through our six regional Native 
American program offices across the country. We also provide 
training and working with Native American industry groups 
through their auspices as well, both for our employees but 
also, in addition, for Native American tribes and their 
members, again, to figure out what their vision is and help 
them reach and attain those goals.
    Chairman Johnson. Mr. O'Brien?
    Mr. O'Brien.  Thank you, Mr. Chairman, for that question. I 
will just mention three sort of formal relationships that we 
have with our Federal partners to better serve tribal 
communities.
    The first is the Tribal Interagency Infrastructure Task 
Force, as was referred to in prior testimony, where we work 
with our sister agencies on infrastructure issues. Some of the 
difficult issues, for instance, how we deal with the 
environmental process when you are leveraging funds in a 
particular project and the different avenues that the tribal 
community--they need to deal with, you know, two or three or 
maybe even four different Federal agencies on their 
environmental processes.
    We have been able to make progress so that in a number of 
instances we have been able to work with our Federal agencies 
so that one of the agencies is the lead agency, so that the 
tribal community can work with one contact person. And to the 
degree that we are able, we coordinate our processes and, 
looking at our regulations, how we can better match our 
regulations to make it easier for the tribal communities to 
deal with.
    The other one I will mention is the memorandum of 
understanding we have with BIA--or that we are working on 
drafting with BIA to deal with the complicated leasehold and 
property interest when we are trying to provide funding that 
requires secured interest.
    And the final one I will mention is the Administrative 
Flexibility Task Force that the White House has led to help 
Federal agencies have a platform of conversation to make sure 
that we are not be duplicitous and that we can be the best 
partner possible on tribal lands.
    Chairman Johnson. Mr. McSwain?
    Mr. McSwain. Thank you, Mr. Chairman. As Mr. O'Brien has 
mentioned, certainly the ITF is one that we have operated, and 
one of the people that is not at the table is EPA, which we do 
a lot of work with EPA in partnership in addressing Indian 
communities as well as my other colleagues here.
    One of the major accomplishments I can point out is that 
during certainly the appropriation for the American Recovery 
and Reinvestment Act, in a partnership we actually partnered 
with EPA, and by doing so we cobbled our money that we got with 
their money, and it actually resulted in 160 new projects off 
that long list. And I want to point out that we basically share 
our Sanitation Deficiency System list with all of our 
colleagues, and it becomes sort of a working punch list for all 
of us so that we all can--so it is an ability for all of us to 
look at the list and pick and choose what meets our particular 
agency's authorities.
    So if we can do one thing and certainly USDA or HUD or BIA 
or EPA can do something else, then we kind of work it together, 
and we are constantly talking with tribes, and tribes come in 
to talk to us. And they are making the rounds. They are 
actually talking to all of us. And I want to echo the comment 
by Mr. O'Brien about the President's flexibility Executive 
order. I happen to be on a housing group that is having a 
dialogue in that group on how we can simplify the process for 
tribes to really access resources to meet their needs, and that 
is one that I think is another venue that has really been 
successful.
    Chairman Johnson. Ms. Gillette, do you have any comments to 
follow up with, including on Mr. O'Brien's MOU? Please provide 
us with a timeline.
    Ms. Gillette. We have been engaged in discussions for at 
least a year on the MOU, and from the discussions in creating 
an MOU, we have also found different areas that we need to 
collaborate better on, including improving communication 
between not just the people in Washington, D.C., but throughout 
the field. Part of that is having interpreters that are cross-
trained in understanding both the USDA systems, because USDA is 
a very large agency, and then the unique trust status of the 
lands in Indian Country.
    So you have two systems that are needing to have better 
communication, and we are trying to do that through regular 
conversations and training, and that is actually growing out of 
the MOU discussions. MOU discussions have been taking place, 
like I said, for a year, and we really wanted to identify some 
of the places that make the most sense. So we are in a first-
draft process. How soon we can get that out, you know, we are 
hopeful by the fall we will have something. That is being 
pretty conservative. I think we can do it quicker than that, 
but I am going to probably have to work with USDA to try to 
make some kind of timeline like that.
    But also from the discussions on the MOU, we have also 
identified places that we really do have to look at our own 
regulations and find ways to accommodate for the unique status 
of Indian lands, and then also for the different kinds of 
programs that are available through USDA that tribes and 
individual Indian landowners traditionally have not been able 
to access because of their unique status.
    So we are looking at both regulatory changes in that 
respect as well as the statutory changes that could improve the 
access for everyone in Indian country.
    Then the other thing I wanted to just reiterate is this 
work is all complementary to the Administrative Flexibility 
Initiative that the President directed all of the agencies to 
find ways to work together to reduce the unnecessary 
administrative burdens that are placed on tribes and local 
governments and State agencies so that we can use most of those 
resources to look at producing better outcomes rather than 
duplicative processes throughout the agencies. Although the 
Administrative Flexibility Initiative is just a year old, we 
have a number of conversations that have been ongoing, and this 
initiative is really going to allow us to provide deliverables 
within a specific timeline in the Administration, and that is 
being run out of the Office of Management and Budget and the 
Domestic Policy Council.
    Chairman Johnson. Thank you.
    Senator Akaka?
    Senator Akaka. Thank you very much, Mr. Chairman.
    Again, I want to repeat that I like what you all are saying 
and that you are working jointly to help the indigenous people 
here with MOUs, also being partnered with the tribes, and 
working 95 percent programs operated by the tribes. And so this 
indicates joint efforts on your part, and I commend you for 
that.
    Mr. McSwain, there is a significant need in Indian Country 
for wastewater infrastructure, and you mentioned that the IHS 
mission is to raise the health status of American Indian and 
Alaska Native people to the highest possible level by providing 
comprehensive health care and preventive health services. To 
support the IHS mission, the Sanitation Facilities Construction 
program provides American Indian and Alaska Native homes and 
communities with essential water supply, sewage disposal, and 
solid waste disposal facilities.
    My question to you is: How does IHS prioritize tribal need 
in its SFC program?
    Mr. McSwain. Thank you, Senator Akaka. It begins with us 
having a conversation at the community level with each of the 
tribes, and from that we actually develop their needs as they 
have them. And then we compile them into certainly the national 
need, but it is basically every area--Alaska would be sitting 
down with their villages and corporations--and determining what 
the total need is, and that gets captured in a national setting 
in terms of the total need, and that is the total need I talked 
about, which is $3.4 billion.
    Each of the areas then meets with their tribes, and the 
tribes in their discussion will rate and rank their particular 
needs across the State, and we represent those. And when we get 
an appropriation, we go work that list again with those tribes.
    So every tribe, certainly we break it down between water, 
sewer, and solid waste disposal for each of the tribes, and so 
we have a rate and ranking even within each of those.
    So we are able to really cast a very detailed description 
of what the needs are, but they are reflective of the 
fundamental tribal consultation, tribes telling us what their 
needs are. After all, when we go on to the reservation, we need 
their permission. We also give them the option if they want to 
build it, they can assume it and build it. It is their choice. 
But if we build it, we build it with their approval, site 
selection, architecture, how we deliver the actual three major 
services. But that is essentially--I hope I have answered your 
question, but basically it is this $3.4 billion and $1.4 
feasible is--obviously there is a big difference when it is 
going to cost a lot to--and maybe it is--I found out on the 
Navajo, for example, you have to go quite a ways to find 
potable water, which means you are doing pipelines and you are 
finding places to build. And this is not unique to Navajo but 
certainly an example.
    But, again, those particular projects are consulted with 
the tribes, and we have that list, and the very first dollar we 
get for the allocation goes to the one that they choose.
    Senator Akaka. Thank you for your response.
    Ms. Gillette, how does the housing situation in Indian 
Country impact the Department's ability to provide teachers to 
BIA schools and law enforcement officers to Native communities?
    Ms. Gillette. Well, it is something that impacts our 
ability to recruit and retain key employees in those different 
agencies. And as you noted in your opening remarks, housing not 
only affects needy tribal members, but it also affects the 
ability for professionals to stay home as well, and it affects 
our ability to bring people in as employees for different law 
enforcement or education roles. And so this is something that 
we do provide. We have approximately 3,419 units across Indian 
Country in 131 different sites. We know that there is 
difficulty in how this is all structured because we have 
limited funds to expand the units that are out there. We also 
have an issue with the ability for us to maintain that because 
the only way we can maintain the units is by the rental income 
that we receive, and that rental income has to be set based on 
similar units in the local community, and sometimes the local 
community does not have comparable units.
    So we struggle with maintaining, even when we do build, but 
we are looking at different ways to revise some of those 
regulations to establish rental rates and trying to find 
innovations and making sure that we have a more realistic 
approach to providing housing for professionals in our 
agencies.
    Senator Akaka. Thank you. Thank you very much, all of you, 
for your responses, and I want to thank our Chairman for his 
leadership in this area as he continues to work on this.
    Thank you very much, Mr. Chairman.
    Chairman Johnson. Thank you, Senator Akaka.
    I have just a couple more questions. Ms. Gillette, given 
the BIA's responsibility for managing American Indian trust 
land, how have delays in approving leases impacted housing 
construction and economic development in Indian Country? I have 
heard numerous horror stories related to the delays in 
approving leases over the years.
    Ms. Gillette. With our undertaking of revising the leasing 
regulations as it relates to home sites, we have looked at 
these since the beginning of this Administration. Actually, 
this is the first time these regulations are going to be fully 
revamped in 50 years, and so this is a huge undertaking for the 
Department. In the past, the leasing regulations were grouped 
under agricultural and nonagricultural, so you had all of the 
different types of leasings grouped into other leases.
    The proposed rule, what we plan to do with that is separate 
the different types of leases out to homeownership, renewable 
energy, and business leasing. And so the homeownership aspect 
of it, you know, generally the revisions make the procedures 
for leasing more transparent and as explicit as possible. We 
have also provided procedures for amendments, assignments, sub-
leases, which they have--they are not in there currently, and 
we are addressing leases for single-family homes and housing 
for public purposes on Indian lands. The proposed regulations 
will provide for a 30-day timeframe in which the BIA must issue 
a decision on a complete residential lease application; 
otherwise, it is deemed approved. And that is something that 
timeframes have not been imposed with the current regulations. 
We also have standards for disapproving leases that have not 
been in place either, so we are trying to make those more 
consistent. We also have provisions in there that really talk 
to the specifics of enforcement of lease violations.
    Chairman Johnson. Thank you.
    Mr. McSwain, given IHS' primary mission to provide for the 
health of American Indians, can you give us a sense of the 
negative impact unsafe and overcrowded housing has on the 
health of Native communities? In South Dakota, I have seen far 
too many inadequate homes on reservations that house two, 
three, or more families, which causes a number of problems, 
including black mold.
    Mr. McSwain. Thank you, Mr. Chairman. I do not have the 
actual numbers, but anecdotally, hearing about black mold, in 
particularly North and South Dakota, is really, I believe, 
clearly on our radar. The biggest issue is sort of the 
recurrent issues that are happening with black mold up 
particularly in the higher parts of North Dakota.
    I am personally aware of some of those, and actually had 
discussion with the tribal leaders, about how to address those. 
A lot of it has to do with the fact that they have low-lying 
water and how homes are built and the fact that they are not 
really built properly to deal with those particular 
environmental conditions.
    But I do not have any numbers on it, but I am aware, 
certainly hearing from tribal leaders about the overcrowding 
and the numbers of families that are in a particular house 
certainly indicates that a few more houses would be appreciated 
by them. But certainly I do not have the numbers that would 
correlate to how extensive and quantify the overcrowding, but 
anecdotally, it is occurring.
    Chairman Johnson. Thank you all for your testimony and for 
being here with us today. Each of the agencies you represent 
plays an important role in providing American Indian families 
with safe, affordable, and high-quality housing options.
    This hearing is adjourned.
    [Whereupon, at 11:09 a.m., the hearing was adjourned.]
    [Prepared statements and responses to written questions 
supplied for the record follow:]

               PREPARED STATEMENT OF CHAIRMAN TIM JOHNSON

    Good morning. I call this hearing to order.
    Today, the Committee will continue examining an issue of great 
importance to me and so many in my home State of South Dakota----the 
lack of safe, affordable, high-quality housing opportunities in Indian 
Country. During my time in Congress, I have worked to improve the 
housing options available to American Indians, including being an 
original cosponsor of the Native American Housing Assistance and Self-
Determination Act of 1996. Unfortunately, as those living in Native 
communities know all too well, the critical housing needs far outpace 
the resources devoted to the problem.
    The Census Bureau reported in 2008 that Native Americans are almost 
twice as likely to live in poverty as the rest of the population. For 
the same year, the GAO reported that nearly 46 percent of Native 
households were overcrowded, a rate that was almost three times as high 
as the rest of the country. According to the 2009 Annual Homeless 
Assessment Report, American Indians make up less than 1 percent of the 
general population, but 8 percent of the country's homeless population. 
Together, we must work to reverse this trend.
    In 2010, I chaired a joint Banking and Indian Affairs Committee 
field hearing in Rapid City, South Dakota to examine creative solutions 
to the Indian housing crisis. Prior to the hearing, I brought HUD 
Secretary Donovan to the Rosebud Sioux Reservation so that he could see 
first-hand the immediate challenges facing Native communities. We heard 
from several witnesses who all echoed the need for housing funds. I 
support their calls for sufficient funding and will continue fighting 
for such funding as a member of the Appropriations Committee. But, it 
is also important that we collaborate and leverage existing resources 
to provide housing in these tough economic times. These resourceful 
ideas are not meant to free the Federal Government of its treaty and 
trust responsibility. Rather, these ideas should serve as another 
avenue for us to work together to address the housing crisis facing 
Indian Country.
    As Chairman of this Committee, I'm committed to ensuring that 
programs across many Federal agencies that address Indian housing, 
infrastructure, and community development are easily accessible to 
tribes and their housing organizations. It's also critically important 
that Federal agencies engage in a government-to-government relationship 
and participate in meaningful consultation with tribes on housing 
issues and other important matters. That's why I've invited all of you 
to testify today. Each of your agencies plays an important role in 
Indian housing or housing-related infrastructure and community 
development. I look forward to hearing from you about how your agencies 
collaborate to make sure your work provides the most efficient and 
effective housing assistance possible in Indian Country.
    Longer term, the Committee is beginning to lay the foundation for 
the reauthorization of NAHASDA next year. It will be important for all 
of us concerned about Indian housing to work closely on this 
reauthorization, including tribes and their housing agencies.
                                 ______
                                 
               PREPARED STATEMENT OF SANDRA B. HENRIQUEZ
    Assistant Secretary, Department of Housing and Urban Development
                             March 8, 2012

    Good morning Chairman Johnson, Ranking Member Shelby and Members of 
the Committee. It is a pleasure to appear before you, and I would like 
to express my appreciation for your continuing efforts to improve the 
housing conditions of American Indian, Alaska Native and Native 
Hawaiian peoples.
    The Office of Public and Indian Housing is responsible for the 
management, operation and oversight of HUD's Native American and Native 
Hawaiian housing and community development programs. These programs are 
available to all 565 federally recognized Indian tribes and the State 
of Hawaii's Department of Hawaiian Home Lands. We serve these entities 
directly, or through their tribally designated housing entities (TDHE), 
by providing formula-based housing block grants and loan guarantees 
designed to support affordable housing and community development. Our 
partners are diverse; they are located on Indian reservations, in 
Alaska Native Villages, and on the Hawaiian Home Lands.
    Before we begin exploring the ways that Federal agencies working in 
Indian Country can do a better job of coordinating efforts to broaden 
economic development opportunities, I would like to provide the 
committee with a brief overview of the programs administered by the 
Office of Native American Programs (ONAP) at HUD.

ONAP Programs
    HUD administers four programs specifically targeted to Native 
American and Alaska Native individuals and families:

  <bullet>  Indian Housing Block Grant program;

  <bullet>  Title VI--loan guarantee program;

  <bullet>  Section 184--Single Family Home Loan Guarantees; and

  <bullet>  the Indian Community Development Block Grant Program 
        (ICDBG).

    In implementing these programs, the Department recognizes the right 
of tribal self-governance and the unique relationship between the 
Federal Government and tribal governments, established by long-standing 
treaties, court decisions, statutes, Executive Orders, and the United 
States Constitution. Each of the 566 federally recognized tribes has 
its own culture, traditions, and government. The Department strives to 
balance respect for these individual tribes with regulations and 
procedures that ensure accountability and consistency.
    HUD also administers two programs specifically targeted to Native 
Hawaiians eligible to reside on the Hawaiian Home Lands.--Native 
Hawaiian Housing Block Grant program and the Native Hawaiian Loan 
Guarantee Program. The block grant program for Native Hawaiians is 
administered through the State Department of Hawaiian Home Lands and is 
augmented by a home loan guarantee program.

Indian Housing Block Grant
    The Indian Housing Block Grant (IHBG) is ONAP's largest program, 
both in terms of dollars appropriated and population served. It was 
authorized by the Native American Housing Assistance and Self-
Determination Act (NAHASDA) in 1996. IHBGs are awarded to eligible 
Indian tribes or their tribally designated housing entities (TDHE) for 
a range of affordable housing activities that primarily benefit low-
income Indian families living on Indian reservations or in other Indian 
service areas. The amount of each grant is based on a formula that 
considers local needs and the number of units developed with 1937 
Housing Act funding and currently managed by the tribe or its tribally 
designated housing entity (TDHE). The block grant approach offers each 
tribe the flexibility to design, implement, and administer unique, 
innovative housing programs, based on local need.

Title VI_Loan Guarantees
    NAHASDA also authorized the Title VI program, which offers 
recipients of the IHBG (tribes and their TDHEs) a loan guarantee 
program that encourages long-term projects and the leveraging of a 
variety of funding sources. Under Title VI, HUD can guarantee 95 
percent of a loan for affordable housing activities. Borrowers pledge a 
portion of their current and future IHBG funds as security. This 
program has provided an incentive for lenders to get involved in the 
development of tribal housing.

Section 184_Single Family Home Loan Guarantees
    The Section 184 program was authorized by the Housing and Community 
Development Act of 1992, as amended. It is a single-family mortgage 
loan program that provides a 100 percent guarantee for private mortgage 
loans issued to eligible borrowers. Eligible borrowers include American 
Indian and Alaska Native families and individuals, Indian tribes, and 
TDHEs. There are no income limits. Loans are used to purchase, 
construct, rehabilitate, refinance, or purchase and rehabilitate a home 
located on a reservation or within an Indian area. A one-time, 1 
percent guarantee fee is charged; it can be financed or paid in cash at 
closing. The maximum mortgage term is 30 years.

Indian Community Development Block Grant Program (ICDBG)
    This program was authorized by the Housing and Community 
Development Act of 1974. ICDBG is a competitive program, open to 
federally recognized tribes and certain tribal organizations. Each 
year, approximately 1 percent of the Community Development Block Grant 
appropriation is set-aside for ICDBG.
    Some examples of ICDBG projects include construction of health 
clinics and other public facilities including gymnasiums and cultural 
centers; housing rehabilitation; health and education facilities; 
infrastructure, including roads, power, water, and phone lines; and 
waste water systems.

Native Hawaiian Housing Block Grant (NHHBG)
    The NHHBG program, Title VIII of NAHASDA, was authorized by the 
Hawaiian Home Lands Homeownership Act of 2000. The Department of 
Hawaiian Home Lands (DHHL) is the sole recipient. The NHHBG is designed 
to primarily benefit low-income Native Hawaiians who are eligible to 
reside on the Hawaiian Home Lands. Eligible activities are the same as 
for the IHBG program. DHHL provides many housing services, including 
counseling and technical assistance, to prepare families for home 
purchase and ownership. DHHL is also using NHHBG and other funds to 
invest in infrastructure for future housing development.

Section 184A_Native Hawaiian Loan Guarantee Program
    Section 184A was established by Section 514 of the American 
Homeownership and Economic Opportunity Act of 2000, which amended the 
Housing and Community Development Act of 1992. The program is similar 
to Section 184, but is intended for Native Hawaiians eligible to reside 
on the Hawaiian Home Lands.

Collaborations that Improve Service Delivery and Foster Economic 
        Opportunities

Federal Partnerships
    HUD collaborates with several Federal agencies that serve Indian 
Country; specifically the Bureau of Indian Affairs (BIA), Indian Health 
Services (IHS), the Departments of Agriculture (USDA) and Energy (DOE), 
the Federal Emergency Management Agency (FEMA), and the Environmental 
Protection Agency (EPA).
    Although short and/or long-term cost savings are difficult to 
project, economies of scale should result from enhanced coordination 
and collaboration among Federal agencies. Increased collaboration among 
and within agencies will help ensure that Native Americans are 
receiving the support they need from Federal programs.

HUD-BIA Partnership
    In 2004, Assistant Secretaries' from HUD, U.S. Department of 
Agriculture (USDA) and Bureau of Indian Affairs (BIA) executed an 
Interagency Memorandum of Understanding (MOU) to improve the delivery 
of Federal programs and services for the benefit of Native Americans. 
While the primary focus of the MOU is to reduce the BIA's Title Status 
Reports (TSR) process down to 30 days.
    The inability to secure title in a timely fashion has reduced 
access to capital for Native Americans and Alaska Natives living on 
tribal trust, allotted, and individual trust land (tribal lands). With 
evidence of clear title, land-use decisions can be more easily made and 
enacted, and business opportunities and job creation is possible. 
Building an efficient system for title delivery will pave the way for 
increased collaboration between tribes and government agencies, 
financial institutions, corporations, and builders.
    Since the MOU was executed, the HUD-BIA partnership has produced 
several advancements including a reduction of processing time for TSRs, 
streamlined and synchronized administrative functions between the BIA 
and HUD offices when obtaining a mortgage on tribal lands, and 
developed staff training on a national recordation process. While the 
partnership has produced many positive results, there is still room for 
improvement in order to bring the titling process to market rate 
standards, and ultimately encourage economic development in Indian 
Country.

HUD and FEMA
    Since its inception in 2008, HUD and the Federal Emergency 
Management Agency (FEMA) have partnered to distribute nearly 1,900 
mobile homes to Tribes all across the country. These homes were 
originally purchased by FEMA as emergency disaster housing but were 
never occupied.
    In 2011, HUD decided to use our partnership with FEMA to tackle a 
very specific another housing issue in Indian Country--retaining good 
teachers. Teacher turnover rates on tribal land are very high due to 
the lack of affordable housing options. HUD's 2011 mobile home 
distribution became a Teacher Housing Initiative designed to retain 
good Native teachers in Indian Country. HUD distributed over 550 mobile 
homes in 2011 under this initiative. The tribes only pay for set-up and 
transportation costs and can use HUD's Indian Housing Block Grant funds 
or any other tribal funds to pay for these expenses.

Infrastructure Task Force
    An Inter-Agency Infrastructure Task Force (``Task Force'') came 
into effect on June 2007 following the signature by the Department 
Secretaries of two Memoranda of Understanding (MOU) to develop 
strategies to improve access to safe drinking water and basic 
sanitation in Indian country.
    The Federal partners of the Task Force are the U.S. Department of 
Agriculture (Rural Development--USDA-RD), the U.S. Environmental 
Protection Agency (EPA), the U.S. Department of Health and Human 
Services through the Indian Health Service, the U.S. Department of 
Housing and Urban Development (HUD), and the U.S. Department of the 
Interior (Bureau of Indian Affairs--BIA).
    This group continues to meet on a routine basis to address the 
provision of quality water and waste water infrastructure services in 
support of tribal housing and tribal communities. As part of this 
effort a workgroup was established to develop a plan of action with all 
the possible recommendations for streamlining the multi-agency 
requirements placed on Tribes in order to receive Federal funding for 
water and wastewater infrastructure construction projects.
    This working group provided their recommendations in February 2011 
in a report titled, Overview of Tribal Water Infrastructure Funding 
Application Processes and Recommended Paperwork Streamlining 
Opportunities. The report contains 10 recommendations including: 
coordination of agency grant funding cycles, additional use of IHS 
sanitation deficiency system priority list by all Federal partners, 
develop a standard environmental review process and Federal agency 
cross training.
    The larger Task Force is currently focusing on issues of 
sustainability in an effort to improve the quality and long-term 
viability of water and waste water infrastructure projects.

Greener Homes National Summit
    In September 2011, the third annual Greener Homes National Summit 
was held in Denver, sponsored by ONAP. This conference brought together 
HUD, DOE, EPA and USDA, and is considered a hallmark of tribal and 
Federal participation. This 3-day conference fostered discussions to 
promote energy efficient tribal homes and communities, and encouraged 
economic development of renewable energy sources and energy efficiency 
technologies.
    Federal agencies collaborated on a strategy to provide tribes with 
a coordinated, ``one-stop'' approach to training and technical 
assistance in energy efficiency and sustainability, which would 
eliminate duplicative efforts and conserve resources for both tribes 
and the Federal agencies involved.

Tribal Collaboration
Housing Needs Study
    HUD is conducting a comprehensive, nationally representative HUD 
study on the extent of housing needs in Indian Country and Hawaii. The 
last comparable study was conducted in 1996. In 2010 and 2011, HUD held 
seven regional outreach meetings with tribal housing stakeholders as 
well has a national tribal consultation meeting in Washington, DC to 
seek tribal input on the research approach and survey instrument 
design. The study's outreach plan and survey instruments have been 
refined based on input from these sessions and comments from the expert 
panel convened specifically for the study.
    Despite these efforts, there was concern from the tribal community 
that tribal leaders did not have the opportunity to review the study 
through formal tribal consultation. In response to that concern, HUD 
committed to hold additional tribal consultations on the survey 
instruments and study design in 2012 and begin the field survey work in 
2013.
    HUD is working with the National Congress of American Indians 
(NCAI) and the National American Indian Housing Council to host six 
regional consultations and two national consultations beginning in 
March of this year. The first national consultation took place earlier 
this week in conjunction with NCAI's Executive Council Winter Session. 
The second national meeting will take place in June. Dates and 
locations for the regional meetings are being finalized.
    In the meantime, the secondary data collection and analyses are 
underway.

Negotiated Rulemaking to Implement the NAHASDA Reauthorization Act
    On October 14, 2008, the President signed into law the Native 
American Housing Assistance and Self-Determination Reauthorization Act 
of 2008 (the Act). Section 105 of the Act contains the requirement to 
engage in negotiated rulemaking to create regulations for those 
provisions of the Act that are not self-implementing. HUD held six 
negotiated rulemaking sessions in fiscal year 2010, which produced a 
draft proposed rule.
    This proposed rule was published in the Federal Register on 
November 18, 2011. Public comments were due on January 17, 2012. HUD 
received 20 public comments and is currently reviewing them. 
Preparations are being made to review the public comments and make any 
final adjustments. The rule will again be placed into Departmental and 
OMB clearance. After that process is complete, the final rule will be 
published in the Federal Register.
    In May of this year, HUD will publish a Federal Register notice 
announcing the creation of a separate negotiated rulemaking committee 
to propose changes to the IHBG formula. The notice will request 
nominations to represent tribes on this new committee. HUD anticipates 
holding its first meeting of this negotiated rulemaking committee in 
the fall of CY 2012.

Indian Housing Plan (IHP) Conversion Update
    In 2005, the Office of Native American Programs (ONAP) started the 
process of converting the Indian Housing Block Grant (IHBG) program 
from a grant-based program to a fiscal year-based program. This major 
administrative change was the number one priority requested through the 
eight consultation sessions that were held around the country that 
year.
    Since then, a tribal workgroup assisted HUD in developing the new 
IHP/APR form that is being implemented now. The new IHP/APR 
incorporates statutory changes from the 2008 NAHASDA Reauthorization, 
and extensively streamlines the planning and reporting process for IHBG 
funding.
    The new IHP/APR also collects new data on program activities and 
tribal housing need. In response to the GAO report Tribes Generally 
View Block Grant Program Effective, but tracking of Infrastructure 
Plans and Investments Needs Improvements, the IHP will now track 
infrastructure in the section where the grantee identifies their low 
income and all families `needs', as wells as adding `infrastructure to 
support housing' as a specific eligible activity. The APR will track as 
a specific outcome `improve quality of existing infrastructure'.
    In the past year, there has been intensive training around the 
country to ensure that everyone has the opportunity to learn about the 
new IHP/APR, and the administrative changes that are occurring with the 
shift to a fiscal year-based program. Additional training sessions will 
be available starting this summer.
    The transition thus far has been a success. Over the next year we 
should see the benefits of this change. Improvements include: the 
ability to track activities and expenditures using only one IHBG grant 
rather than having multiple open grants; expenditure of the oldest IHBG 
funds first; ONAP obligation of most the fiscal year funding by late 
June rather than in September or later.

Administrative Flexibility Working Groups on Native American Issues
    In February 2011, the President issued a Memorandum to Federal 
agencies entitled ``Administrative Flexibility, Lower Costs, and Better 
Results for State, Local, and Tribal Governments.'' This memorandum 
instructed Federal agencies to work with tribal governments--as well as 
States and localities--to reduce unnecessary administrative burdens and 
focus available resources to achieve better program outcomes. Based on 
comments and input from tribes and Native American business leaders, 
the Domestic Policy Council (DPC) and the Office of Management and 
Budget (OMB) convened five interagency working groups, comprised of 
senior program managers, to focus on areas that Indian Country 
identified as priorities. HUD is actively involved in working groups on 
Housing and also Loans and Credit (the other working groups include 
Training and Employment, Broadband Service, and Workforce Development). 
Goals for these groups include:

  <bullet>  Housing. This group is developing a matrix of Federal 
        housing, community, and economic development programs across 
        the various agencies to increase the visibility of available 
        resources and determine how to make these programs more 
        accessible.

  <bullet>  Loans and Credit. The goal of this group is to ensure that 
        Federal loan and credit programs are deployed to tribal 
        economies through: improved flexibility under existing loan and 
        credit program authority; improved and innovative deployment, 
        oversight and accountability of loan programs in Indian 
        Country; reduction in inefficiencies or disconnections between 
        existing programs; and improvement in knowledge of programs 
        through better training and technical assistance.

Working groups have reached out to Tribes to receive input through 
written comments, conference calls, and discussions at conferences and 
other events.

Closing
    Thank you again, Mr. Chairman, and Members of the Committee, for 
the opportunity to appear before you today. I look forward to 
continuing to work with you and your staffs on these issues. I would be 
happy to answer any questions you may have.
                                 ______
                                 
                   PREPARED STATEMENT OF DOUG O'BRIEN
              Deputy Under Secretary for Rural Development
                       Department of Agriculture
                             March 8, 2012
RURAL DEVELOPMENT
    Chairman Johnson, Ranking Member Shelby, and Members of the 
Committee, I want to start by thanking you for inviting me to testify 
here today and to represent United States Department of Agriculture 
(USDA) on the issue of housing in Indian Country.
    When we talk about housing at Rural Development, we often speak of 
the entire rural community--its infrastructure and facilities, its 
businesses, as well as the individual homeowner. Programs at USDA span 
a wide range of areas that have an impact on Indian Country, including 
food safety, housing, business development, telecommunications, water 
systems, crop insurance, nutrition, research, and of course the 
programs designed to assist farmers. According to the National Congress 
of American Indians, agriculture is the second largest employer in 
Indian Country. As such, Secretary Vilsack is committed to a USDA that 
faithfully serves Tribal governments, Tribal communities, and 
individual American Indians and Alaska Natives.
    The Office of Tribal Relations (OTR), located within the Office of 
the Secretary, is the primary point of contact for Tribal consultation 
and collaboration within USDA and works with all USDA agencies to 
ensure that relevant programs and policies are efficient, easy to 
understand, accessible, and developed in consultation and collaboration 
with the American Indian and Alaskan Native governments they impact. 
OTR is responsible for improving our government-to-government relations 
between USDA's various agencies and Tribal governments, advising 
Secretary Vilsack on Tribal issues and concerns, Tribal consultation, 
the Alaska Native Claims Settlement Act (ANCSA), and issues impacting 
Tribal members. OTR works cooperatively and collaboratively across USDA 
to build an integrated approach to issues, programs, and services that 
address the needs of American Indians and Alaskan Natives. We believe 
that the efforts and commitment of OTR in partnership with all USDA is 
guiding the Department toward a more flexible and sustainable approach 
in addressing the needs of Tribal governments, the communities they 
serve, and the individuals living on Tribal lands.
    Since President Obama's 2009 Memorandum on Tribal Consultation and 
Collaboration, a dedicated team from across USDA has been working to 
re-examine existing departmental policies and regulations regarding 
Tribal collaboration and consultation and how USDA programs are 
utilized in Indian Country. In 2010 we held a series of joint 
consultation regional events where we heard from Tribal elected 
officials and their representatives about program rules and the 
challenges to stronger utilization of USDA programs in Indian Country. 
Rural Development took part in those regional venues and RD staff and 
leadership have participated many times at the local, regional and 
national level in ongoing dialogue with Tribal leadership.
    On June 9th, 2011 President Obama signed an Executive Order 
establishing the first White House Rural Council. The White House Rural 
Council's goal is to improve coordination of programs across Government 
and encourage public-private partnerships to promote increased economic 
prosperity and improved quality of life in rural communities. Chaired 
by Secretary Vilsack, the Council is responsible for helping coordinate 
Federal investments in rural areas and continues to hear from a wide 
variety of rural stakeholders, including Tribal governments. The 
Council breaks down program silos and finds areas for better 
collaboration and improved flexibility in Government programs. To 
further this objective, in August 2011 the Rural Council convened the 
White House Native American Business Leaders Roundtable with Tribal 
representatives, economic development experts, and Federal 
policymakers. At this roundtable participants discussed challenges 
Tribal businesses face, including access to capital, job skills and 
training shortfalls, and limited broadband deployment and adoption in 
Tribal communities. Just last week, Federal representatives and Tribal 
business and Government leaders participated in a Capital Access 
roundtable at the Reservation Economic Summit (RES) 2012, where we 
continued to delve deeper into the challenges and barriers faced in 
accessing necessary capital to build strong rural economies in Indian 
Country. The feedback and insight gained by my colleagues is being 
incorporated into our ongoing efforts to address economic growth in 
Indian Country, and USDA looks forward to all we can achieve with our 
partners in the Federal Government and in Indian Country to create more 
opportunity in Native American communities.
    USDA is also addressing civil rights complaints that go back 
decades in order to pave the way for new and stronger relationships 
with the rural farming and ranching communities found throughout Indian 
Country. In October 2010, Secretary Vilsack announced the settlement of 
a decades-long discrimination case brought against the Department by 
Native farmers and ranchers: Keepseagle v. Vilsack. Up to $760 million 
in monetary relief, debt relief, and tax relief is available to 
successful claimants. The claims period closed in December 2011 and we 
anticipate payments to successful claimants this calendar year. As part 
of the settlement of the Keepseagle case, the Secretary will appoint a 
Council on Native American Farming and Ranching that will meet 
regularly to further advise USDA on how our programs can build strong 
rural farming and ranching communities. We expect the appointment of 
the Council members to occur in the coming months.
    Furthermore, USDA continues to be an active participant on the 
Tribal Infrastructure Task Force to address the ongoing need for safe 
drinking water and basic sanitation in Indian Country. Between 2003 and 
2009, the combined funding from the Task Force Agencies--USDA, 
Environmental Protection Agency (EPA), Indian Health Service (IHS) and 
the Department of Housing and Urban Development (HUD)--provided 80,941 
Tribal homes access to safe drinking water and 43,562 Tribal homes 
access to basic sanitation. In August 2011, USDA Rural Development 
provided a $12 million grant and $3.34 million loan to Mni Waste Water 
Company to complete phase II of a multi phase project to replace a 
failing water system that serves the Cheyenne River Sioux Tribe 
Reservation, as well as Meade and Perkins Counties in South Dakota. In 
fact, prior to this investment Rural Development hosted an interagency 
funding meeting with the Cheyenne River Sioux Tribe where the tribe 
spelled out its priorities and challenges associated with this project 
in front of Federal officials from USDA, the Indian Health Service, HUD 
and EPA--all of which also actively participate in the task force. 
These numbers demonstrate significant progress made by the Task Force 
agencies, but we recognize that more work is needed. To this end, the 
Task Force is refocusing its goals around the principle that access to 
safe drinking water and basic sanitation should be provided through 
entities that are sustainable and implemented through integrated agency 
planning that links the development goals of the tribe with the need 
for such services and infrastructure. This principle fits well with 
USDA Rural Development programs that are committed to improving the 
economy and quality of life in rural areas.
    In recent months, USDA has been working to improve our program 
delivery to Tribal governments, communities and individuals they serve. 
As an outgrowth of the Keepseagle settlement, USDA has established a 
technical assistance network in partnership with the Intertribal 
Agriculture Council. The network works across Indian Country in 13 
regional locations to provide needed technical assistance on the ground 
so that Tribal governments, communities and individuals have a stronger 
understanding of USDA programs and of how to strategically plan for 
their communities' growth. And finally, USDA launched a Strike Force 
initiative in southeastern States that is now expanding to western 
States with substantial Native American populations. The Strike Force 
initiative ensures that the Federal agencies (both within and beyond 
USDA) partner to provide effective and targeted technical assistance. 
These technical assistance efforts do not duplicate one another; 
instead, they complement and catalyze the efforts of staff from 
numerous agencies. USDA recognizes that Federal program managers need 
to strive to provide seamless technical assistance and we also 
recognize that in many rural communities, this type of targeted 
technical assistance is needed to uncover the best strategies to vision 
and build strong communities and families. We believe that these 
efforts will ensure the unique challenges of Native Americans, living 
both on and off reservations, will be addressed.
    To better serve tribes and to ensure Rural Development investments 
flow onto Tribal lands, it is both pragmatic and necessary that we work 
in cooperation with elected Tribal officials, adhere to Tribal 
ordinances and laws, and partner with other Federal agencies such as 
the Indian Health Service, the Bureau of Indian Affairs (BIA), HUD, and 
many other Federal partners. Rural Development has exceptional staff in 
our nationwide network of State-level field offices and area offices 
across the rural landscape. These individuals work closely with Tribes 
and dedicated partners on a daily basis in the for-profit and nonprofit 
sectors. Rural Development staff in the local offices deliver programs 
for all three agencies in the Rural Development mission area-the Rural 
Business and Cooperative Service, Rural Housing Service and Rural 
Utilities Service. By being located in rural communities, we are able 
to cultivate important relationships with Tribal leaders, Tribal 
professional staff, lenders, realtors, community-based organizations, 
redevelopment authorities, leadership groups, and others. Each State-
level Rural Development office maintains a Native American Tribal 
Coordinator to assist Tribes with their development interests by 
providing technical assistance and programmatic knowledge throughout 
the application process. Rural Development provides financial programs 
to support essential public facilities and services such as water and 
sewer systems, housing, health clinics, emergency service facilities, 
electric, telephone and broadband services. Rural Development promotes 
economic development in rural areas by providing loans, loan 
guarantees, grants, and other assistance to applicants, including 
tribes, Tribal members, individuals and families, banks, and community-
managed lending pools. And RD, I am proud to say, has a long history of 
investing in Tribal economies. From 2001 to 2011, Rural Development 
assistance benefiting tribes totaled more than $3 billion. I believe we 
can continue on this path and even do more, if funds are available.
    On the issue of housing in Indian Country, Rural Development 
understands the history of challenges as well as the opportunities that 
lie before us. USDA Rural Development continues to work closely with 
national organizations like the National Congress of American Indians, 
the National American Indian Housing Council (NAIHC), and the National 
Center for American Indian Enterprise Development to communicate Rural 
Development's program information to their members and affiliates. Over 
the past 10 years, our Rural Housing Service has invested nearly $1.3 
billion dollars that has benefited American Indians and Alaska Natives. 
Our Single Family Housing (SFH) Direct and Guaranteed loan programs 
helped over 7,200 American Indian and Alaska Native families become 
homeowners. RD's SFH Home Repair program funded home repairs for over 
2,900 American Indian and Alaska Native families.
    Over the same period, our Multi-Family Housing (MFH) Direct Loan 
program supported the construction of 67 properties and made nearly 
1,200 rental units available to Tribal members. Housing Preservation 
Grants have helped repair or improve 1,412 American Indian and Alaska 
Native occupied housing units. Our MFH Guaranteed Loan program has 
supported the construction of 5 properties with 217 rental units 
available to Tribal members.
    We have seen the impact of such projects first-hand. Just last 
month, our Under Secretary for Rural Development, Dallas Tonsager, had 
the privilege of taking part in a ribbon cutting ceremony held by the 
Maliseet Tribe to celebrate their first multi-family apartment complex. 
Working with our State office in Maine, the Maliseet Tribe broke ground 
in November 2010 at a time when the Tribal Housing Authority had 40 
families on a waiting list for housing. This six unit housing complex, 
the first Multi-family housing facility funded in part by USDA Rural 
Development on Maliseet land, is a step in the right direction toward 
providing affordable housing to this community. But we would like to do 
more throughout Indian Country, and we are working to develop 
additional solutions to increase the availability of our loan programs 
to Tribal lands.
    Over the last year, USDA staff have been meeting regularly with BIA 
staff to discuss land and lending issues that create challenges when 
extending credit for projects on trust land. As a result of these 
meetings a new MOU between USDA and BIA is currently being drafted 
which will improve the working relationships between USDA and BIA 
staff, allowing BIA personnel to better understand each of RD's 
programs and the associated technical requirements for delivery to 
American Indians, Alaska Natives and Indian tribes, and our own staff 
to better understand BIA responsibilities On the subject of home 
ownership, the MOU will also foster collaboration to increase home 
ownership as well as home repair and rehabilitation opportunities by 
identifying and addressing barriers to leasing, mortgage approval, lien 
perfection, and foreclosure proceedings in Tribal courts. I am hopeful 
that this MOU will pave the way toward easier access to RD programs and 
ultimately provide increased homeownership opportunities in Indian 
Country.
    RD has also been working hard to reduce the burden of costs 
associated with homeownership on Tribal lands. Historically, insurance 
and insurance-like products have been unavailable, difficult to access, 
or expensive on trust lands owned by tribes and Tribal members. In some 
instances this lack of insurance may have been an impediment to 
utilizing Rural Development financing for projects on Tribal lands. In 
practice, Rural Development requires Federal and applicable State laws 
and regulations to be followed when insuring Rural Development financed 
projects, but barring those limitations there is no legal or 
programmatic reason to deny the use of an appropriate insurance-like 
product on any project financed through Rural Development's Single 
Family Housing Direct Loan programs, and RD is working to develop 
solutions. The AMERIND Risk Management Corporation is a risk management 
agency that administers a tribally owned risk management pool for 
coverage of homes and other structures on Indian lands where there has 
been a lack of affordable insurance. Through discussions with AMERIND, 
RD is optimistic that we will be able to bring them into the insurer 
pool for RD projects, and normalize the use of this product, which will 
make access to our housing products more amenable in Indian Country. A 
Rural Development Administrative Notice was published in November 2011 
advising staff that the use of AMERIND coverage could save borrowers 
money and increase the available capital in Native communities.
    We have worked hard with the BIA, HUD, the VA and NAIHC on all of 
these issues over the years. But we still need to improve access to our 
programs in any way that we can. Hopefully, trust reform and the BIA's 
new leasing regulations will help. But agencies, Rural Development 
included, will need to think creatively about how they can best provide 
their financing products to Tribal lands.
    We look forward to publishing a final rule on the Substantially 
Underserved Trust Areas (or SUTA) provision in the weeks ahead. RUS 
published a Proposed Rule in December 2011 and closed the comment 
period on January 17th, 2012. Once published, the final rule will allow 
RUS to make our water, electric, telecom and broadband programs more 
affordable and accessible for projects financed within Trust Areas. We 
need to do a better job of working across agencies, both in the field 
and in Washington, DC, so that we better know each of our missions and 
capabilities, which will better enable us to resolve issues when they 
arise. We also need to work more closely with tribes so that Tribal 
leaders, Tribal councils and Tribal courts better understand the steps 
that they can take on their own as well as in partnership with Federal 
agencies to create more homeownership opportunities on Tribal lands. 
And finally, we need to work more closely with lenders to make sure the 
proper incentives are in place so that Federal loan guarantee programs 
are also used on Tribal lands. Our recent work with Tribal communities 
and other government entities makes me hopeful that we can continue to 
make progress on these issues.
    I want to thank you for the Committee for the opportunity to speak 
here before you today.
                                 ______
                                 
                  PREPARED STATEMENT OF ROBERT McSWAIN
                 Deputy Director, Management Operations
                Department of Health and Human Services
                             March 8, 2012
    Mr. Chairman and Members of the Committee:

    Good afternoon. My name is Robert McSwain and I am the Deputy 
Director for Management Operations of the Indian Health Service (IHS). 
I am pleased to have this opportunity to appear before you today, and 
discuss the important issue of Native American housing and 
infrastructure development.
    We are keenly aware of the need for adequate housing throughout 
Indian Country and of equal importance is the requirement for adequate 
infrastructure to support new and existing housing. Housing and 
supporting infrastructure are critical factors for a healthy living 
environment.
    The IHS has the primary responsibility for providing water supply, 
along with solid and liquid waste disposal facilities for American 
Indian and Alaskan Native (AI/AN) homes and communities as part of 
delivering a comprehensive health program. The IHS provides sanitation 
facilities through construction projects to serve existing homes and 
communities, and for most new and like new homes. The IHS works 
cooperatively, as close partners, with tribes in providing these 
essential sanitation facilities. Enhancing tribal capabilities and 
building partnerships based on mutual respect are key factors in the 
success of this IHS program. The IHS also coordinates and advocates on 
behalf--of and in--cooperation with Tribes to seek resources from other 
Federal Agencies to support needed facilities.

IHS/Federal Special Trust Responsibilities
    The IHS plays a unique role within the U.S. Department of Health 
and Human Services (HHS), to meet the Federal special trust 
responsibility by providing health services and resources to the 565 
federally recognized AI/AN Tribes. IHS provides comprehensive health 
services to approximately 2.1 million AI/ANs through a system of IHS, 
Tribal, and Urban Indian (I/T/U) operated health service units and 
programs, based on authorities founded in treaties, judicial 
determinations, and Acts of Congress.
    The mission of the Agency is to raise the physical, mental, social, 
and spiritual health of AI/ANs to the highest level, in partnership 
with the population we serve. The Agency aims to assure that 
comprehensive, culturally acceptable personal and public health 
services, including traditional medicine, are available and accessible 
to the service population. Our obligation is to promote healthy AI/AN 
people, communities, and cultures, and to honor the inherent sovereign 
rights of Tribes.
    The IHS seeks to work in partnership with the Tribal communities it 
serves and, as such, IHS health care facilities and their 
administration includes Tribal representatives who closely participate, 
as key stakeholders, in the health services preparedness and delivery 
system. Current public laws, Federal policies, and individual Tribal 
governance decisions determine the role and relationship IHS has with 
each Tribe, and the corresponding level and methods of health services 
delivery, support, oversight, control, and resources IHS provides.

IHS Organization and Capabilities
    The IHS Headquarters (IHS-HQ) is located in Rockville, Maryland. 
The Agency has 12 strategically located Area Offices across the United 
States, which include IHS and Tribally operated hospitals and 
ambulatory health centers, as well as 34 Urban Indian health programs, 
located in 36 States. The I/T/U health care system provides patient 
care and public health services within Indian reservations and 
communities, and has well-established ongoing partnerships with Tribal 
governments and programs.

Role of the IHS in the Provision of Sanitation Facilities 
        Infrastructure
    Sanitation Facilities Construction (SFC) is an integral component 
of the IHS disease prevention activities. The IHS has carried out this 
program since 1959 using funds appropriated for SFC to provide potable 
water and waste disposal facilities for AI/AN people. As a result, 
rates of infant mortality, the mortality rate for gastroenteritis and 
other environmentally related diseases have been dramatically reduced 
by about 80 percent since 1973. IHS Physicians and health professionals 
credit many of these health status improvements to IHS's provision of 
water supplies, sewage disposal facilities, development of solid waste 
sites, and the provision of technical assistance to Tribally owned 
water and sewer utility organizations. Today, while less than 1 percent 
of the U.S. population is without access to safe water more than 12 
percent or about 48,000 AI/AN homes, are without access to safe water 
or adequate wastewater disposal facilities and those families that live 
in these homes are still at an extremely high risk for gastrointestinal 
and respiratory diseases at rates similar to developing countries. Many 
of these homes without service are very remote and may have limited 
access to health care which increases the importance of improving 
environmental conditions in the home as part of a comprehensive public 
health program.
    IHS plans, designs and provides professional engineering and 
construction project management services for approximately 400 SFC 
projects annually with a total cost of over $190 million, which 
includes contributions from other agencies. The program manages annual 
project funding that includes contributions from Tribes, States and 
other Federal agencies. SFC projects can be managed by IHS or by tribes 
under the Indian Self Determination and Education Assistance Act. All 
SFC projects are carried out from beginning to end in cooperation with 
the Tribes to be served by the facilities. Projects are funded and 
implemented through an agreement between the Tribe and IHS. In these 
agreements tribes agree to ownership of the provided facilities as well 
as operation and maintenance responsibilities.
    Annually, IHS works with Tribes to develop an inventory of needed 
sanitation facilities known as the Sanitation Deficiency system (SDS). 
The SDS data has sanitation deficiencies of homes by community and a 
priority ordered list of projects to address all of those deficiencies. 
As of November 2011, the list of all projects to correct sanitation 
deficiencies totaled almost $3.1 billion, with those projects that are 
considered economically and technically feasible totaling almost $1.46 
billion. About 231,000 or 60 percent of AI/AN homes are in need of new 
or improved sanitation facilities. Maximum health benefits are achieved 
by addressing existing sanitation needs and by providing needed 
facilities to new homes as they are constructed.
    Over 97 percent of IHS SFC funds are utilized for two types of 
projects. Regular projects to serve existing homes are selected in 
priority order from SDS. Housing projects to serve new and like new 
homes, serve Indian homes being constructed or rehabilitated by the 
Bureau of Indian Affairs Housing Improvement Program, Tribes, 
individual homeowners, or other Federal agencies except for new HUD 
housing. Housing projects are funded based on a priority based 
classification system.

Coordination with States, Tribes and other Federal Agencies
    The IHS has coordinated with States, Tribes, local government and 
other Federal agencies since the first sanitation facilities project at 
Elko, Nevada, in 1958 which led to the passage of P.L.86-121, the 
Indian Sanitation Facilities Construction Act, in 1959. Now 
coordination occurs at all levels of Federal agencies from HQ to the 
local level for specific projects.
    In 2007 the Environmental Protection Agency (EPA), Department of 
Agriculture (USDA), Department of Interior (DOI), Housing and Urban 
Development (HUD), and Health and Human Services (HHS) formed an 
Infrastructure Task Force (ITF) and signed two Memoranda of 
Understanding (MOU) to achieve the commitments made by the United 
States in 2002 under the United Nations Millennium Development Goals 
for improved access to safe drinking water and basic sanitation in 
Indian Country. Specifically, the United States committed to reduce the 
number of tribal homes lacking access to safe drinking water and basic 
sanitation by 50 percent by 2015. The ITF has Federal agency members as 
well as tribal representatives. A subgroup of the ITF was chartered to 
identify, prioritize and categorize barriers and recommended solutions. 
The barriers and recommended solutions developed by the subgroup can be 
divided into three major themes:

  1.  Infrastructure Funding,

  2.  Operation and Maintenance funding, including support for tribal 
        capacity development,

  3.  Programmatic Coordination

    The ITF continues to meet quarterly and have continued to work on 
these themes. To track progress in meeting the goal the agencies use 
IHS SDS data. A current priority of the ITF is to develop and implement 
strategies to support sustainable tribal operation and maintenance 
(O&M) organizations with the intent to target limited infrastructure 
funding specifically toward access.
    A positive outcome of the ITF was the coordination of American 
Recovery and Reinvestment Act sanitation projects by IHS and EPA. 
Projects were agreed upon in consultation with tribes at the IHS Area 
and EPA Regional level and two agreements were developed to move the 
EPA projects and funding to IHS for nearly 160 projects totaling $90 
million. We have been able to agree upon standard reporting requirement 
which are now used for all IHS and EPA projects. We have also 
standardized and streamlined interagency agreements between the two 
programs.
    All members of the ITF have been working to streamline all 
paperwork and processes for tribal programs from the application 
process through National Environmental Policy Act (NEPA) 
determinations. Last year a process was developed in Alaska with EPA, 
IHS, USDA and the State of Alaska to streamline sanitation project 
implementation in Alaska.
    In Arizona, as a result of the efforts of the agencies under the 
ITF two regular coordination activities are ongoing. There is a Multi-
Agency Tribal Infrastructure Collaborative which has representatives 
from various Arizona State agencies, EPA, HUD, USDA, DOI, the Navajo, 
Phoenix and Tucson IHS Areas, the Intertribal Council of Arizona, plus 
other participants. We also have seen a group of water and waste water 
system technical assistance providers start to meet and coordinate 
technical assistance for Tribal O&M groups.
    For IHS projects, coordination with other Federal agencies has 
always been a priority. We have historically handled this at the 
project level beginning with project preplanning. For projects serving 
existing homes, this begins in the SDS inventory of projects and is 
used by IHS and the Tribes to determine funding needs and possible 
contributions from the State, and other Federal agencies. This 
information is used by IHS and the Tribes to seek and secure these 
sources of funding before IHS can execute the project. Many projects on 
SDS require funding from more than the IHS appropriations because of 
the vast number and scale of the projects on the list. EPA uses SDS 
data to select EPA Indian Set-Aside projects to access Clean Water Act 
and Safe Drinking Water Act State Revolving Funds. So, coordination 
with other Federal agencies is imperative.
    Those projects that serve new and like new homes funded with SFC 
housing funds, are also often partially funded with outside 
contributions especially those for renovated homes also known as like 
new homes. IHS does not have the authorization to provide household 
plumbing, so, in many cases, other sources of funds are used to 
complete renovations and provide household plumbing. These projects 
also require advanced coordination and planning.
    Approximately 43 percent of all IHS SFC funded projects over the 
last 5 years are funded either partially or entirely with contributions 
from others. Using these contributions IHS is able to serve homes or 
buildings that are not eligible for IHS funding, such as using 
contributed funds for provision of offsite sanitation facilities for 
new HUD homes funded through the Native American Housing Assistance and 
Self Determination Act of 1996 (NAHASDA). We use contributed funds to 
serve new NAHASDA homes because IHS is not authorized to use IHS 
construction funds for this purpose.
    All projects require some coordination between IHS, the Tribes, 
States and other Federal agencies. In addition to funding, there is 
coordination that occurs under NEPA determinations which progresses to 
acquisition of easements. With mixed sources of funding in many IHS 
projects, the NEPA processes can become much more complex. After the 
systems are constructed, coordination still occurs to support long term 
technical assistance for operations.

Challenges in Providing Safe Water and Waste Disposal Facilities in 
        Indian Country
    The needs for sanitation facilities infrastructure grow every year. 
Growth is partially from population growth and inflation, but changing 
environmental laws and regulations have an impact on need which can 
create a long term O&M impact. This long term O&M impact is due to the 
operational cost and complexity of some of the facilities needed.
    For example, the arsenic rule went into effect in 2006 and promptly 
our data indicated 18,000 additional homes impacted in 38 communities. 
Currently, EPA data shows there are now 36 systems on tribal lands 
serving 42,700 people out of compliance for Arsenic. EPA data includes 
BIA and other systems that are not part of the IHS needs data. While 
treatment may be possible, in most cases, the types of treatment needed 
may double or more the costs of water service. In addition, treatment 
requires highly trained and certified operators who may not be 
supportable by a small rural water system. In many of these systems, we 
are working with the tribes to regionalize water systems or looking to 
new water sources to avoid treatment. It is necessary to balance 
upfront costs with long term operation costs. Arsenic is just one 
example. The groundwater and disinfection bi-products rules also add 
new complexity of operations for all of rural America.
    Tribally owned and operated water and waste water systems are 
aging. Much of the major infrastructure components were constructed 
nearly 30 years ago. Population growth, new environmental laws and the 
need for system repairs and replacement also affects the annual 
infrastructure need.
    IHS along with other Federal agencies is seeking a way to make the 
operation and maintenance of sanitation facilities constructed in 
Indian Country sustainable. This requires a multi-tiered approach, 
beginning with the design and construction of facilities appropriate to 
the operational capacity of the local community. Federal agencies need 
to support operator training, and necessary startup supplies and 
equipment to the O&M organization to improve the operating capacity of 
the community as we construct new facilities. To have sustainable 
facilities there needs to be sustainable O&M organizations that, in 
addition to operating the facilities, can set and charge user fees, 
along with disconnecting users for nonpayment. All Federal agencies are 
seeking ways to coordinate the activities of our O&M technical 
assistance providers to support this vision.
    Since 1982, Congress prohibited the use of IHS sanitation 
facilities construction funds for HUD funded homes in appropriations 
bills. Before NAHASDA was passed in 1996, the IHS received funding 
directly from HUD to serve HUD homes. Afterwards, all funds went to the 
Tribally Designated Housing Entities (TDHEs) across the country and 
reduced funding provided to the IHS through HUD to address 
infrastructure for HUD homes. This has reduced coordination between HUD 
and IHS. IHS is willing to assist in site selection, planning design 
and construction if the TDHE desires. We can also assist in the 
coordination with other Federal agencies to fund the needed facilities

Summary
    In summary, IHS seeks to provide the best culturally acceptable 
health services to all federally recognized Tribes, while respecting 
their tribal sovereignty, and tribal self-determination. IHS is 
committed to providing comprehensive health services to Indian Country 
including the provision of sanitation facilities to support housing. In 
addition, IHS will continually seek opportunities to improve our 
communication, integration, and coordination with all Federal, State, 
local, and Tribal partners.
    Finally, IHS participates in forums to review, discuss, and improve 
Federal-level coordination of infrastructure to improve access to safe 
water supply and wastewater disposal facilities throughout Indian 
Country.
    This concludes my remarks, and I will be happy to answer any 
questions you may have. Thank you.
                                 ______
                                 
                  PREPARED STATEMENT OF JODI GILLETTE
             Deputy Assistant Secretary for Indian Affairs
                       Department of the Interior
                             March 8, 2012

    Good morning, Mr. Chairman and Members of the Committee. My name is 
Jodi Gillette; I am the Deputy Assistant Secretary for Indian Affairs. 
I am here today to provide the Department of the Interior's 
(Department) testimony on the Bureau of Indian Affairs' (BIA) role in 
assisting individual Indians in the pursuit of homeownership. While we 
recognize that the Department of Housing and Urban Development (HUD) 
has primary responsibility for the development of new housing for the 
Federal Government and for development of affordable housing in Indian 
Country, my statement will provide some background information on the 
BIA's Housing Improvement Program (HIP). I will also discuss the 
current process and procedures for obtaining a Title Status Report 
(TSR) within the BIA, and our efforts to promote homeownership.

Housing Improvement Program
    The HIP addresses the Department's strategic goal of serving Indian 
communities by improving the quality of life of eligible Indians by 
helping to eliminate substandard housing and homelessness in or near 
federally recognized reservation communities. The program includes 
housing repairs and renovations of existing homes and construction of 
modest homes for families who do not own a home but have ownership of 
or lease sufficient land suitable for housing. The BIA policy and 
methodology ensures that the neediest of the needy are provided housing 
assistance by implementing eligibility criteria that is identified in 
25 C.F.R. Part 256.14.
    The HIP is 95 percent contracted or compacted by tribes. Tribes 
participating in the program must comply with regulations found in 25 
of C.F.R. Part 256 (Housing Improvement Program).
    On September 28, 2004, the BIA entered into a Memorandum of 
Understanding with the Departments of Agriculture and HUD for the 
purpose of establishing a framework for partnering among the agencies 
to improve assistance to American Indians and Alaska Natives in the 
development and operation of affordable housing on trust or restricted 
lands, reservations, and in approved service areas. Our goal is to 
assist tribes in improving their living environment through the 
delivery of quality housing and in resolving issues that delay 
processing of mortgage loans to eligible Indians.

Land Title Grant Procedures
    The BIA has Land Titles and Records Offices (LTRO) located at 8 of 
its 12 regional offices: the Alaska Regional Office in Anchorage, 
Alaska; the Eastern Oklahoma Regional Office in Muskogee, Oklahoma; the 
Great Plains Regional Office in Aberdeen, South Dakota; the Northwest 
Regional Office in Portland, Oregon; the Pacific Regional Office in 
Sacramento, California; the Rocky Mountain Regional Office in Billings, 
Montana; the Southern Plains Regional Office in Anadarko, Oklahoma; and 
the Southwest Regional Office in Albuquerque, New Mexico. Each LTRO is 
the official Federal office for recording all title conveyance and 
encumbrance documents for Indian lands within the LTRO's jurisdiction. 
The LTRO is also the Federal office for the examination and 
certification of title to Indian trust and restricted lands. The 
official Federal certificate of title to Indian lands is the Title 
Status Report (TSR). The TSR reports the legal land description, the 
current ownership, and the recorded liens and encumbrances on ownership 
for a specific tract of Indian trust or restricted land. The issuance 
of TSR's for mortgages is the top priority of the Land Title and 
Records Offices. We strongly support programs that improve or develop 
housing on Indian lands for Indian people.
    The certified title is required by the lending institution to 
verify that the loan applicant has acquired a leasehold interest on 
Tribal land or that the loan applicant has total ownership of the trust 
land, and that the title is clean and clear of any liens against the 
property so the loan application process can move forward.
    Once the mortgage has been approved using the BIA-generated TSR, 
the document is sent to the LTRO for recording purposes with a request 
for a second certified TSR. HUD requires the subsequent TSR showing the 
mortgage as an encumbrance to the Title before the loan is guaranteed. 
Some lending institutions also require this additional TSR before 
releasing the funds.
    There are very few differences in the production of TSR's from 
location to location. When there are, often those differences are 
dictated by the particular lending institution or Federal agency 
providing the loan. Requirements and standard operating procedures vary 
from Federal agency to Federal agency. The BIA LTRO's strive to 
accommodate these differences, as we support the mission to provide 
home loans to Indian people. Private lending institutions also have 
varying requirements and procedures, consequently our process for 
providing TSR's may vary to accommodate the lender.
    Since the inception of the Federal loan programs, the mortgage 
requests for certified titles have been a high priority for the LTROs. 
We have made significant changes to our title program over the past 
several years aimed at improving our ability to deliver in an accurate 
and timely manner in all aspects of our Indian land title operations, 
including the processing of TSRs. Previously, the procedure to request 
a TSR for mortgage purposes required that all requests first go through 
the Agency Superintendent at the relevant BIA office through the 
Regional Director on behalf of the tribal member. Recently, the BIA 
Division of Land Title and Records (DLTR) and its Land Titles and 
Records Offices changed their business model from a passive model or 
``examine-and-certify-title-only when-requested'' to a proactive 
business model of ``title-on-demand'' that requires the title to all 
Indian trust and restricted lands be maintained in an up-to-date 
certified status at all times. In December, 2011, the DLTR redesigned 
the TSR to improve its readability and to make it similar to commercial 
title products. The redesigned TSR is produced and certified as a 
completely digital title report that is stored in a TSR repository as 
part of the Trust Asset and Accounting Management System (TAAMS). The 
certified digital TSR can be retrieved from TAAMS as an electronic 
digital image file that can be printed and mailed or can be attached to 
an email message and sent directly to the TSR requestor, whether the 
requestor is a BIA agency office or a mortgage lender. Beginning in 
January 2012, the LTROs began the process of producing digitally 
certified TSRs for more than 212,000 tracts of Indian trust and 
restricted land. The title ownership to each tract of land is re-
certified and a new digital certified TSR produced after any conveyance 
of ownership, whether by deed or probate order. We have additional 
changes planned in the near future which will further improve the 
quality of the data in our title system, thus improving our overall 
product.
    In the 2004 MOU between the Departments of Housing and Urban 
Development, Agriculture, and the Interior, the BIA's Realty and LTRO 
programs agreed to provide the necessary products and services within 
30 days to keep the process moving forward to assist Indians in 
becoming homeowners. Lenders can utilize the information in those TSR's 
to insure that the lands are free of liens and are available for 
mortgaging.
    The BIA Division of Land Titles and Records has partnered with the 
HUD Office of Native American Programs to provide training to lenders 
in order to educate the lenders concerning the title process for Indian 
mortgages, and to facilitate and improve the efficiency of the mortgage 
process. Anytime a mortgage is approved it has the potential to improve 
the quality of life for Indians. As stated earlier, requests for title 
status reports for mortgage purposes are and will remain a high 
priority for the Bureau. The implementation of TAAMS has increased 
efficiency and cost savings in the management of Indian lands and in 
the production of TSRs for mortgage purposes.

Proposed Leasing Regulations and the HEARTH Act
    Indian Affairs is in the process of revising leasing regulations as 
part of the effort to return control of land use decisions to tribal 
management and to streamline surface leasing processes to promote 
homeownership, economic development, and clean energy. The comment 
period on those proposed regulations ended over a month ago, and we 
anticipate issuing final regulations later this year.
    In addition to proposing revisions to existing leasing regulations, 
the Department strongly supports the Helping Expedite and Advance 
Responsible Tribal Homeownership Act (HEARTH Act), both the House and 
Senate versions, H.R. 205 and S. 703 respectively. The HEARTH Act would 
restore tribal authority to govern leasing on tribal lands and to 
promulgate regulations for the governance of those leases, while 
preserving the statutory tools available to the Secretary for carrying 
out the trust responsibility to tribes. This model ensures that tribal 
regulations provide a mechanism for environmental review and public 
comment, exempting the Secretary for liability from claims by parties 
to the lease, and authorizing the Secretary to cancel a lease that is 
not in accordance with approved tribal regulations.
    Both versions of the HEARTH Act would amend certain sections of 25 
U.S.C.  415 (the Indian Long-Term Leasing Act) to permit tribes that 
choose to develop their own leasing program to approve and enter into 
certain leases without prior express approval from the Secretary of the 
Interior. Under both pieces of legislation, willing tribes would 
initially submit their own leasing regulations to the Secretary of the 
Interior for approval. Following Secretarial approval of such leasing 
regulations, tribal governments would process leases for tribal trust 
land at the tribal level, pursuant to their own laws, without a 
requirement for further approval of the Secretary. This has the 
potential to significantly reduce the time it takes to approve leases 
for homes and small businesses.
    This concludes my prepared statement. I will be happy to respond to 
any questions you may have.

RESPONSE TO WRITTEN QUESTION OF CHAIRMAN JOHNSON FROM SANDRA B. 
                           HENRIQUEZ

Q.1. Ms. Henriquez, I'd like to get your thoughts on the 
question I posed to Mr. McSwain regarding health effects of 
poor housing conditions. As I've said, I've seen far too many 
inadequate homes on reservations that house two or more 
families, which cause a number of problems such as black mold. 
Tribal leaders and those involved with the schools have also 
raised the issue that kids living in overcrowded conditions 
have trouble finding places to study or even rest at night.
    Can you give us your sense of the negative impact unsafe 
and overcrowded housing has on the health and well being of 
Native communities?

PIH Response
A.1. The Office of Native American Programs (ONAP) has received 
anecdotal evidence about the negative impact overcrowded 
housing has on the health and well-being of Native American 
families, and in particular, children. Children living in 
overcrowded homes are more likely to have immediate health and 
safety issues. Children are often doubled up in bedrooms with 
siblings or other family members, or sleep in other areas of 
the house, such as the living room or kitchen. Poor ventilation 
in overcrowded conditions spreads disease and contributes to 
mold growth.
    Children in overcrowded housing conditions are often 
exposed to drug and alcohol abuse at a much younger age--either 
within the household by a family member or outside the 
household as the child is seeking to avoid the overcrowded 
situation. The stress created by overcrowded living conditions 
can contribute to increased verbal and physical abuse as well.
    Overcrowding affects learning and education. There is often 
no space or a quiet place for a child to do school work. 
Without an appropriate place to sleep or study, these children 
do not perform well in school. Some tribally designated housing 
entities (TDHEs) have made a connection between children living 
in overcrowded conditions and high truancy rates. Ultimately, 
families and children living in overcrowded units suffer long-
term financial consequences.
    From a housing management standpoint, overcrowding 
conditions make it more difficult to maintain a home and causes 
additional wear and tear on the unit, which contributes to such 
factors as mold growth. Mold growth can cause respiratory 
illness and exacerbate asthma symptoms. Children, the elderly 
and pregnant women are the most vulnerable to mold-related 
illnesses.
    To combat this situation, Tribes and TDHEs have developed 
youth programs to give children a place to go after school. 
However, the most effective measure to combat the negative 
effects of overcrowding is to provide additional units to 
reduce the number of overcrowded units.
    HUD's Indian Housing Needs Study will attempt to quantify 
the number of overcrowded units and delineate between units 
that are overcrowded due to a lack of housing options (i.e., 
homelessness) and units that are overcrowded by choice--through 
multigenerational living. To address the latter, TDHEs are 
constructing units to take into consideration cultural 
preferences such as multigenerational living, cooking, heating 
and storage needs.
    HUD has taken a proactive stance on mold abatement and 
remediation in Indian Housing. This includes annual training on 
mold prevention in each ONAP region and site visits and 
technical assistance in areas hardest hit by mold and poor air 
quality. ONAP has also provided Imminent Threat grants through 
the Indian Community Development Block Grant program for severe 
mold infestation.

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
